<html>
<title> - CHALLENGES IN A CATASTROPHE: EVACUATING NEW ORLEANS IN ADVANCE OF HURRICANE KATRINA</title>
<body><pre>[Senate Hearing 109-735]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-735
 
                      CHALLENGES IN A CATASTROPHE:
                   EVACUATING NEW ORLEANS IN ADVANCE
                          OF HURRICANE KATRINA

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION




                               __________

                            JANUARY 31, 2006

                               __________

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                    U.S. GOVERNMENT PRINTING OFFICE
26-752                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   SUSAN M. COLLINS, Maine, Chairman
TED STEVENS, Alaska                  JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            CARL LEVIN, Michigan
NORM COLEMAN, Minnesota              DANIEL K. AKAKA, Hawaii
TOM COBURN, Oklahoma                 THOMAS R. CARPER, Delaware
LINCOLN D. CHAFEE, Rhode Island      MARK DAYTON, Minnesota
ROBERT F. BENNETT, Utah              FRANK LAUTENBERG, New Jersey
PETE V. DOMENICI, New Mexico         MARK PRYOR, Arkansas
JOHN W. WARNER, Virginia

           Michael D. Bopp, Staff Director and Chief Counsel
                   David T.Flanagan, General Counsel
                        David F. Porter, Counsel
      Joyce A. Rechtschaffen, Minority Staff Director and Counsel
                Robert F. Muse, Minority General Counsel
                 Stacey M. Bosshardt, Minority Counsel
          David M. Berick, Minority Professional Staff Member
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Collins..............................................     1
    Senator Lieberman............................................     3
    Senator Warner...............................................    17
    Senator Lautenberg...........................................    19
    Senator Akaka................................................    21

                               WITNESSES
                       Tuesday, January 31, 2006

Hon. Johnny B. Bradberry, Secretary, Louisiana Department of 
  Transportation and Development.................................     7
Colonel Terry J. Ebbert, Director, Homeland Security and Public 
  Safety for the City of New Orleans.............................     9
Walter S. Maestri, Ph.D., Director, Jefferson Parish Department 
  of Emergency Management........................................    11
Jimmy Guidry, M.D., Medical Director and State Health Officer, 
  Louisiana Department of Health and Hospitals...................    28
Kevin U. Stephens, M.D., J.D., Director, New Orleans Health 
  Department.....................................................    31
Joseph A. Donchess, Executive Director, Louisiana Nursing Home 
  Association....................................................    33

                     Alphabetical List of Witnesses

Bradberry, Hon. Johnny B.:
    Testimony....................................................     7
    Prepared statement with supplemental testimony...............    47
Donchess, Joseph A.:
    Testimony....................................................    33
    Prepared statement...........................................   104
Ebbert, Colonel Terry J.:
    Testimony....................................................     9
    Prepared statement...........................................    70
Guidry, Jimmy, M.D.:
    Testimony....................................................    28
    Prepared statement with an attachment........................    81
    Responses to post-hearing questions..........................    98
Maestri, Walter S., Ph.D.:
    Testimony....................................................    11
    Prepared statement...........................................    76
Stephens, Kevin U., M.D., J.D.:
    Testimony....................................................    31
    Prepared statement...........................................    99

                                APPENDIX

Exhibit 2 titled ``State of Louisiana, Office of Homeland 
  Security and Emergency Preparedness, Emergency Operations Plan, 
  April 2005,'' submitted by Senator Lieberman...................   107
Exhibit 8 titled ``Memorandum of Understanding'' (Draft) 
  submitted by Senator Lieberman.................................   129
Exhibit 13, e-mail referred to by Senator Collins................   167


                      CHALLENGES IN A CATASTROPHE:
                   EVACUATING NEW ORLEANS IN ADVANCE
                          OF HURRICANE KATRINA

                              ----------                              


                       TUESDAY, JANUARY 31, 2006

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-342, Dirksen Senate Office Building, the Hon. Susan M. 
Collins, Chairman of the Committee, presiding.
    Present: Senators Collins, Warner, Lieberman, Akaka, 
Carper, Lautenberg, and Pryor.
    Chairman Collins. The Committee will come to order.
    Good morning. Today, we face a special challenge in 
conducting this hearing because the full Senate is scheduled to 
vote on Judge Alito at 11 o'clock.
    The leaders of the Senate have requested that we all be in 
our seats for the vote, as opposed to the usual way, where we 
run in and run back. So I will recess the hearing temporarily 
between 10:55 until 11:25, when we will resume.
    In light of these constraints, I am going to ask our 
witnesses to make their opening statements a bit shorter than 
they normally would be, with the assurance that their full 
statements will be included in the hearing record. I am also 
going to give only an abbreviated opening statement, and I, 
too, will put my full statement in the hearing record.

             OPENING STATEMENT OF CHAIRMAN COLLINS

    Chairman Collins. Today, the Committee continues its 
investigation into the preparation for and response to 
Hurricane Katrina. The focus of today's hearing will be on the 
pre-storm evacuation of the greater New Orleans area in 
general, as well as on the special challenges faced by 
hospitals, nursing homes, and other facilities that care for 
people with special needs.
    In the days following Katrina's landfall, the Nation--
indeed, the world--watched their televisions in horror as tens 
of thousands of people in New Orleans scrambled to the roofs of 
their homes to escape the rapidly rising water and await 
rescue. Some residents crowded onto the dry asphalt islands of 
highway off-ramps, where they remained for far too long, or 
suffered in the hot, dirty, and undersupplied Superdome and 
Convention Center.
    Confronted with these heartbreaking and infuriating images, 
we all asked, ``How could such a thing happen?'' Why were so 
many left behind? What was the city's plan for evacuating those 
who were too frail or too ill or who lacked the means to 
evacuate themselves?
    We hope today to understand better the answers to those and 
other troubling questions. This is the Committee's 13th hearing 
on Hurricane Katrina. Of all the lessons to be learned from 
Katrina, effective evacuation to escape a looming catastrophe 
is among the most urgent.
    The initial evacuation from New Orleans in advance of the 
storm went relatively well. Approximately 1 million people left 
the greater New Orleans area in a much more efficient and 
orderly manner than in hurricane evacuations of years past.
    Then, so to speak, the wheels came off. Those without 
access to transportation out of the region found themselves 
stranded, high and dry, but only in the figurative sense. Among 
those left behind were thousands of elderly, disabled, and 
disadvantaged residents.
    A central purpose of this hearing is to learn why the 
responsible government agencies failed to make adequate 
arrangements for those who needed help with transportation or 
who were too ill or too frail to leave on their own. Why did so 
many buses sit idle? Why weren't trains used? Why weren't those 
in hospitals and nursing homes made more of a priority?
    Some of the most horrific problems in the immediate 
aftermath of Katrina were at hospitals and nursing homes. Such 
essentials as safe drinking water and fuel for emergency 
generators were quickly depleted. The difficulty inherent in 
moving patients and nursing home residents only became worse as 
the city flooded. And the loss of dozens of lives at nursing 
homes illustrates the awful consequences of a broken system.
    We must examine the adequacy of the plans for these 
facilities and why they did not evacuate their patients sooner 
and seemed to be so ill-prepared to meet such basic needs. The 
particular aspect of Hurricane Katrina that we take up today 
encapsulates all that went wrong with our preparation and 
response.
    Accurate predictions of the consequences of such a storm 
were in hand, and considerable planning had been undertaken to 
address those consequences. Yet that knowledge and effort were 
overwhelmed by a lack of coordination, by governmental 
complacency, and at times by utter dereliction of duty. The 
result was incomprehensible and unnecessary suffering, 
deprivation, and even loss of life.
    [The prepared statement of Senator Collins follows:]

                 PREPARED STATEMENT OF SENATOR COLLINS

    Today, the Committee continues its investigation into the 
preparation for and response to Hurricane Katrina. The focus of today's 
hearing will be on the pre-storm evacuation of the greater New Orleans 
area in general, as well as on the special challenges faced by 
hospitals, nursing homes, and other facilities that care for people 
with special needs.
    In the days following Katrina's landfall, the nation--indeed, the 
world--watched their televisions in horror as tens of thousands of 
people in New Orleans scrambled to the roofs of their homes to escape 
the rapidly rising water and await rescue. some residents crowded onto 
the dry asphalt islands of highway on-ramps, where they remained for 
far too long, or suffered in the hot, dirty, and undersupplied 
Superdome and Convention Center. Confronted with these heartbreaking 
and infuriating images, we all asked: How could such a thing happen? 
Why were so many left behind? What was the City's plan for evacuating 
those who were frail or ill or who lacked the means to evacuate 
themselves?
    We hope today to get answers to those and other troubling 
questions. This is the Committee's thirteenth hearing on Hurricane 
Katrina. Of all the lessons to be learned from Katrina, effective 
evacuation to escape a looming catastrophe is among the most urgent.
    The initial evacuation from New Orleans in advance of the storm 
went relatively well. Approximately one million people left the greater 
New Orleans area in a much more efficient and orderly manner than in 
hurricane evacuations of years past. It appeared that the State of 
Louisiana's phased evacuation plan, which was revamped in response to a 
flawed exodus for Hurricane Ivan a year earlier, worked quite well.
    Then, so to speak, the wheels came off. Those without access to 
transportation out of the region found themselves stranded, high and 
dry, but only in the figurative sense. Among those left behind were 
thousands of elderly, disabled, and disadvantaged residents. A central 
purpose of this hearing is to learn why the responsible government 
agencies failed to make adequate arrangements for those who needed help 
with transportation or who were too ill or too frail to leave on their 
own. Why did so many buses sit idle? Why weren't trains used? Why 
weren't those in hospitals and nursing homes made more of a priority?
    Our witnesses today will provide valuable insight into these 
issues. The first panel will discuss general evacuation procedures and 
the arrangements made for those who could not, or would not, evacuate. 
the second panel will focus specifically on health-care facilities.
    Among the specific questions we will seek answers to are these:
    What factors contributed to the general success of the motor 
vehicle mass evacuation from the greater New Orleans area? From the 
pre-positioning of gasoline for motorists who might run out to the 
refinement of the traffic-management technique known as contra-flow, 
this is one of the very few positive stories regarding Katrina 
preparation.
    Why did the New Orleans Office of Emergency Preparedness and the 
Louisiana Department of Transportation and Development fail to make 
adequate arrangements in advance for the pre-storm, mass transit 
evacuation of residents without access to motor vehicles? 
Transportation concerns were raised in the Hurricane Pam exercise, yet 
no final or workable arrangements were made to ensure reliable sources 
of buses and drivers for the evacuation.
    The Hurricane Pam exercise predicted that the City of New Orleans 
would flood in a storm of the magnitude and path of Katrina. Given this 
widely known prediction, why was the only designated shelter for people 
in the region who did not evacuate a refuge of last resort at the 
Superdome? Given that plan, why was the Superdome so ill equipped and 
poorly supplied to serve as a full-scale shelter?
    Some of the most horrific problems in the immediate aftermath of 
Katrina were at hospitals and nursing homes. Such essentials as safe 
drinking water and fuel for emergency generators were quickly depleted. 
The difficulty inherent in moving patients and nursing home residents 
only became worse once the City flooded. And the loss of dozens of 
lives at nursing homes illustrates the awful consequences of a broken 
system. We must examine the adequacy of the plans for these facilities, 
and why they did not evacuate their patients sooner and were so ill 
prepared to meet such basic needs.
    The particular aspect of Hurricane Katrina that we take up today 
encapsulates all that went wrong with our preparation and response. 
Accurate predictions of the consequences of such a storm were in hand, 
and considerable planning had been undertaken to address those 
consequences. Yet that knowledge and effort were overwhelmed by a lack 
of coordination, by governmental complacency, and, at times, by utter 
dereliction of duty.
    The result was incomprehensible and unnecessary suffering, 
deprivation, and death. It produced those appalling televised images 
that shocked the world. Those images are now a part of history, a 
history that must never be repeated.

    Senator Collins. Senator Lieberman.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Senator Lieberman. Thanks, Madam Chairman. Good morning to 
you and our witnesses.
    I am going to follow your example, a good one, and ask that 
my full statement be included in the record and just draw from 
it here.
    Today's hearing on the evacuation of New Orleans before 
Hurricane Katrina made landfall last August is a story of 
tragic, maddening, and ultimately fatal consequences of unmet 
responsibilities by all levels of government--city, State, and 
Federal.
    The warnings of the fictional Hurricane Pam exercise that 
we have focused on in this Committee, that a hundred thousand 
people at least in New Orleans had no means to evacuate and 
that thousands more would be immobilized by infirmity or age, 
appear to have been received at all levels of government, but 
at all levels of government just about nothing was done about 
those warnings.
    No one acted to ensure that the pre-landfall evacuation of 
New Orleans would be aggressive, let alone complete. Not the 
city, whose citizens were at risk. Not the State, which was 
responsible under the plan for arranging transportation for 
evacuees. And not the Federal Government, which had the 
authority to assist in the event of a catastrophe but instead 
stood on the sidelines as the hurricane approached.
    Our first panel will describe the efforts that were made 
and, frankly, those that were not at the local and State levels 
to get the citizens of New Orleans and the surrounding areas 
out of harm's way as Katrina approached.
    Our second panel today will look at the role of State and 
city health officials in preparing for and responding to the 
unique threats faced by the sick and infirm. There was no State 
program to deal with health care facilities other than 
hospitals.
    Our investigators found, for example, that nursing homes, 
which had severe difficulties evacuating their patients in 
previous hurricanes, had never been briefed by the State on 
changes made to evacuation procedures for the 2005 hurricane 
season. Although nursing homes are required by the State to 
have emergency preparedness plans, the State of Louisiana 
apparently neither reviews nor enforces those plans.
    For years, doubts about the effectiveness of the plans have 
been raised, as they were again during the Pam exercise. In 
fact, one of the recommendations of that exercise was to 
establish a task force to assess nursing home emergency plans. 
I suppose it will surprise no one to hear that this was never 
done.
    Why wasn't there a comprehensive plan for all patient 
populations? Why did the city, State, and Federal emergency 
managers simply assume hospitals and nursing homes could cope 
with a catastrophic hurricane on their own with no need of 
assistance? Those are some very important questions that need 
answering, hopefully today and certainly before the next 
catastrophe occurs.
    Madam Chairman, the searing pictures of those who were left 
behind in New Orleans--at the Superdome, the Convention Center, 
on the I-10 overpass, and in flooded medical facilities--are 
images that riveted the Nation, embarrassed and angered us. 
They remain with us.
    Emergency planning that does not make provisions for 
society's most vulnerable--the aged, the sick, and the poor--is 
not just operationally unacceptable, it is morally 
unacceptable. These questions form the backdrop for all of our 
Katrina hearings, but particularly for our hearing today about 
what was done and not done to evacuate people from New Orleans 
prior to the storm.
    Thank you. I look forward to the testimony.
    [The prepared statement of Senator Lieberman follows:]

                PREPARED STATEMENT OF SENATOR LIEBERMAN

    Thanks, Madame Chairman. Today's hearing on the evacuation of New 
Orleans before Hurricane Katrina made landfall last August is a story 
of the tragic, maddening, and ultimately fatal consequences of unmet 
responsibilities by all levels of government--city, State, and Federal.
    In the days leading up to Katrina's landfall, 85 percent of the 
city evacuated successfully--the 85 percent that were ambulatory and 
had, found, or could afford transportation, and had a place to stay. 
That is the one bright spot in this tale. But many of the city's most 
vulnerable populations--the poor, the sick, and the aged--were left 
behind.
    The city opened the Superdome as a refuge of last resort, but the 
Superdome was ill equipped to accommodate the tens of thousands who 
would flock there in desperation to escape the rising flood waters. 
Hospitals and nursing homes--filled with the sick and the frail--were 
left to fend for themselves. The fleet of 600 buses that emergency 
planners thought were needed to evacuate those who had no 
transportation of their own came too late to avoid unnecessary 
suffering. And shelter for those who were evacuated was woefully 
inadequate.
    The warnings of the fictional Hurricane Pam exercise that 100,000 
people in New Orleans had no means to evacuate--and that thousands more 
would be immobilized by infirmity or age--appear to have been received 
at all levels of government. But just about nothing was done about 
them.
    No one acted to ensure that the pre-landfall evacuation of New 
Orleans would be aggressive, let alone complete--not the city, whose 
citizens were at risk, not the State, which was responsible for 
arranging transportation for evacuees under the plan, and not the 
Federal Government which had the authority to assist in the event of a 
catastrophic event but instead stood on the sidelines as the hurricane 
approached. Our first panel today will describe the efforts that were 
made--and those that were not--at the local and State levels to get the 
citizens of New Orleans and the surrounding areas out of harm's way as 
Katrina approached.
    At the city level, in 2001, officials appealed unsuccessfully to 
the State for assistance with its evacuation. In 2004 and 2005, a group 
of enterprising city officials began to contract with a variety of 
transportation companies. But they never signed those contracts before 
Katrina struck.
    At the State level, the Department of Transportation and 
Development had been designated as the lead agency responsible for 
securing transportation for the 100,000 without it. But, as State 
Transportation Secretary Johnny Bradberry told our investigators, the 
department objected to that designation, and the task was imply and 
starkly left undone.
    As for the Federal Government, a U.S. Department of Transportation 
official who attended a Pam workshop worried before all the 
participants at a Hurricane Pam workshop that DOT had completed less 
than 10 percent of its planning to fully evacuate New Orleans. And on 
the day before Katrina's landfall, a FEMA report was circulated that 
noted the 100,000 people with no way out. Still, no meaningful actions 
to facilitate evacuation were taken by FEMA before the storm.
    FEMA officials have denied the agency has any responsibility for 
pre-storm evacuation and, in fact, played no role in evacuating New 
Orleans prior to landfall. But the Stafford Act, the Department of 
Homeland Security's National Response Plan, and the Homeland Security 
Act all assign FEMA a broad support and coordinating role in 
catastrophic events. If FEMA has no role, why did it lead the 
evacuation of southeast Texas a few weeks later before Hurricane Rita 
struck?
    Government's attempts to evacuate special needs patients in 
hospitals and nursing homes were equally ineffective. All levels of 
government assumed that medical staff would take responsibility for the 
care and evacuation of their patients in the event of a catastrophe. 
That led to scores of deaths--upwards of 100, according to press 
reports--and left thousands of others without adequate medical care for 
several days after Katrina landed, despite the best efforts of some of 
their care givers.
    Our second panel today will look at the role of State and city 
health officials in preparing for and responding to the unique threats 
faced by the sick and infirm. Unfortunately, we have no witness to 
describe the Federal role [because the Department of Health and Human 
Services, the Federal agency responsible for health care under the 
National Response Plan, has been frustratingly slow to respond to our 
requests for information and witnesses.] But I want to make it very 
clear that under the National Response Plan, HHS is given explicit 
responsibility for patient evacuation and for obtaining assistance from 
the Departments of Defense and Transportation for that purpose. 
furthermore, it was FEMA's responsibility to ensure that Federal 
resources were made available to the State.
    The State emergency plan had for years given the Louisiana State 
University Hospital Sciences Center the lead role in caring for 
hospital and nursing home patients and had designated the Health 
Science Center as the lead coordinator for private hospitals and other 
facilities. But the LSU Health Science Center never fulfilled these 
functions.
    to compound the situation, there was no State program to deal with 
health care facilities other than hospitals. Our investigators found, 
for example, that nursing homes, which had had severe difficulties 
evacuating their patients in previous hurricanes, had never been 
briefed by the State on changes made to evacuation procedures for the 
2005 hurricane season.
    Although nursing homes are required by the State to have emergency 
preparedness plans, the State of Louisiana apparently neither reviews 
nor enforces these plans. For years, doubts about the effectiveness of 
these plans have been raised, as they were during the Pam exercise. One 
of the recommendations of Pam was to establish a task force to assess 
nursing home emergency plans. It will surprise no one to hear that this 
was never done.
    Why wasn't there a comprehensive plan for all patient populations? 
Why did the city, State, and Federal emergency managers simply assume 
hospitals and nursing homes could cope with a catastrophic hurricane on 
their own, with no need of assistance? These are the questions that 
need answering before the next catastrophe occurs.
    The searing pictures of those who were left behind in New Orleans--
at the Superdome, the Convention Center, on the I-10 overpass, and in 
flooded medical facilities--are images that remain with us. Emergency 
planning that does not make provisions for society's most vulnerable--
the aged, the sick, the poor--is not just operationally unacceptable. 
It is morally unacceptable. These questions form the backdrop for all 
of our Katrina hearings, but particularly for our hearing today. Thank 
you, Madam Chairman. I look forward to the testimony.

    Chairman Collins. Thank you.
    Our first panel consists of officials at the State and 
local levels who played key roles in planning and carrying out 
the pre-storm evacuation. I want to thank each of you for 
joining us today and for your cooperation with the Committee's 
investigation.
    Johnny Bradberry was appointed Secretary of the Louisiana 
Department of Transportation and Development in 2004. He leads 
a staff of approximately 5,000, with an annual budget of more 
than $2 billion. Under Louisiana's Emergency Operations Plan, 
Mr. Bradberry's Department is the lead agency for the 
management and coordination of transportation to facilitate 
evacuation in emergencies.
    Colonel Terry Ebbert is the Director of the Office of 
Homeland Security and Public Safety for the City of New 
Orleans, a position he has held since 2003. He was also our 
tour guide on our recent trip to New Orleans, and we 
appreciated his commentary. As Director, he has leadership 
responsibility for the City's Police and Fire Departments, 
Emergency Medical Services, and Office of Emergency Management.
    Dr. Walter Maestri is the Director of Emergency Management 
and Homeland Security for Jefferson Parish and has served in 
that capacity since 1996.
    I would like to ask not only this panel of witnesses but 
the next panel to stand at this point so that I can swear all 
of you in for this hearing. So if the witnesses from the second 
panel would also stand and raise your right hand?
    Do you swear that the testimony you are about to give to 
the Committee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    The Witnesses. I do.
    Chairman Collins. Thank you. Secretary Bradberry, we are 
going to start with you.

   TESTIMONY OF THE HON. JOHNNY B. BRADBERRY,\1\ SECRETARY, 
     LOUISIANA DEPARTMENT OF TRANSPORTATION AND DEVELOPMENT

    Mr. Bradberry. Good morning, Madam Chairwoman and Committee 
Members.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bradberry with supplemental 
testimony appears in the Appendix on page 47.
---------------------------------------------------------------------------
    I am Johnny Bradberry, secretary of the Louisiana 
Department of Transportation and Development. Thank you for 
this opportunity to discuss Louisiana's pre-hurricane 
evacuation preparations.
    I am here to talk about the hurricane evacuation plan that 
was in place for Hurricane Katrina. I also will tell you what 
actions we took before the storm, how my agency could have done 
a better job, and what I am doing to correct those 
shortcomings. I believe that those who fail to reap lessons 
learned from history are doomed to repeat its worst chapters.
    I worked in the oil and gas business in the private sector 
until April 2004, when I accepted Governor Kathleen Blanco's 
challenge to lead the Louisiana Department of Transportation 
and Development. I am a native of Grand Isle, Louisiana's only 
inhabited barrier island.
    As a teenager in 1965, my family and I evacuated our home 
because of Hurricane Betsy. The storm completely destroyed our 
home, and we were forced into exile during my sophomore year in 
high school. It was a defining moment in my life.
    That experience inspired me to do everything I can to help 
my neighbors who are going through that experience 41 years 
later. It also taught me to respect the destructive power of a 
hurricane, and I kept that lesson close to me before, during, 
and after Katrina.
    In 2004, Hurricane Ivan threatened Louisiana, and the New 
Orleans area evacuated under a new contraflow plan that 
utilized both sides of the interstate. We were lucky that Ivan 
spared Louisiana, but the 10- to 12-hour traffic jams to move 
90 miles were unacceptable.
    DOTD learned a lesson about traffic management and set 
about coming up with a better plan. Specifically, Governor 
Blanco ordered the State police superintendent and me to 
develop a new evacuation plan that could quickly and safely get 
citizens out of harm's way. Governor Blanco demanded that the 
new plan focus on what went wrong during the Ivan evacuation 
and how to solve those problems.
    We developed a plan using phased evacuations by zones, 
extensive traffic management, and an improved contraflow 
operation executed in partnership with the Mississippi 
Department of Transportation. In April 2005, local officials 
unanimously endorsed the plan. We began an aggressive and 
successful marketing campaign to educate citizens, and we 
distributed more than 1 million maps that explained the plan.
    Then came Katrina. On Friday morning, August 26, Katrina 
was considered mostly a threat to Florida. The eye was just 
northwest of Key West. Although Louisiana was not a projected 
target, DOTD began storm preparations. We put emergency 
personnel on alert status and prepared to immediately clear all 
evacuation routes. We coordinated pre-staging evacuation 
activities with State police, and we alerted Mississippi of our 
intention to implement contraflow if the storm came our way.
    At 11 p.m. on Friday, the National Weather Service first 
mentioned Louisiana as a possible Katrina target. At 7:30 a.m. 
Saturday, State and local officials coordinated a phased 
evacuation per the new plan, beginning with residents in the 
coastal areas. At approximately 3:30 p.m., contraflow began in 
conjunction with Phase III of the plan, and a full-scale 
evacuation was under way.
    By the time contraflow ended on Sunday evening, August 28, 
we had quickly and safely evacuated more than 1.3 million 
people without significant traffic delays. I am proud of the 
pre-evacuation results that my agency and the State police 
achieved during Katrina, but clearly, more could have been 
done.
    In the ESF-1 function, adopted just 7 weeks before Katrina 
struck, my agency for the first time was tasked with providing 
transportation assets to facilitate evacuation. Although this 
new ESF protocol was viewed by most in State government as a 
transitional plan that had not been fully vetted, discussed, or 
implemented, I should have charged my people with ensuring that 
officials on the local and/or Federal levels were performing 
that function if we were not prepared to fully execute that 
duty.
    Governor Blanco has made it clear to me and to all cabinet 
secretaries that we will be fully prepared to fulfill primary 
and support responsibilities of the new State plan for the 2006 
hurricane season. DOTD will partner with communities in South 
Louisiana, including the City of New Orleans, to ensure that 
buses are staged in strategic locations to evacuate citizens 
who have no transportation.
    We also are in discussions with Amtrak about using their 
services, if needed, for evacuation. Another lesson learned is 
that it is critical for us to more closely coordinate all 
efforts with local and Federal authorities before, during, and 
after a disaster. To that end, I have hired a new full-time 
emergency coordinator for DOTD, and one of her tasks will be to 
strengthen relationships with relevant local and Federal 
officials to ensure future coordinated and appropriate 
response.
    And although I do not wish to lay blame at anyone's 
doorstep, we should all keep in mind that had the levees held 
up, as we believed they were designed to, you and I would not 
be here today. Katrina still would have been a disastrous 
storm, but the real catastrophic damage is a direct result of 
the flood waters that poured through the failed levees.
    I also have a simple request today. We need help. We still 
do not have the commitment from the Federal level to make 
necessary upgrades to our levees to keep our citizens safe and 
allow them to return to their homes. We are doing as much as we 
can with the resources we have. However, we need help with 
legitimate needs for infrastructure upgrades to keep tragedies 
like this from happening again.
    As the horrible stories of misery, suffering, and death 
unfolded on television in the days immediately following 
Katrina, citizens asked how can this happen in America? Today, 
Louisiana's citizens feel they have been abandoned a second 
time, and they are the ones asking how can this happen in 
America?
    In closing, it is natural for all of us to believe the 
fault lies with someone else. The real truth is Katrina moved 
faster than we did. All of us on the local, State, and the 
Federal levels were overwhelmed, undermined, and out-muscled by 
Mother Nature. The lesson learned is that local, State, and 
Federal entities need to work to do more to address evacuation 
of the 8 percent of the population who stayed.
    In closing, I am proud of my employees' efforts before, 
during, and after Katrina. But it is incumbent on all of us at 
every level of government to examine our actions, admit our 
mistakes, and move forward with lessons learned.
    Thank you for your time. I will be happy to answer any 
questions.
    Chairman Collins. Thank you. Colonel Ebbert.

  TESTIMONY OF COLONEL TERRY J. EBBERT,\1\ DIRECTOR, HOMELAND 
     SECURITY AND PUBLIC SAFETY FOR THE CITY OF NEW ORLEANS

    Colonel Ebbert. As an introduction, I am Colonel Terry 
Ebbert, the Director of Homeland Security and Public Safety for 
the City of New Orleans.
---------------------------------------------------------------------------
    \1\ The prepared statement of Colonel Ebbert appears in the 
Appendix on page 70.
---------------------------------------------------------------------------
    I spent my adult life serving the citizens of this Nation 
and the City of New Orleans. I want to thank you for the 
invitation to testify before this Committee.
    Katrina was a natural disaster which overwhelmed 
operational capabilities, resources, and civil infrastructure 
at the local, State, and Federal level. Gone are homes, 
families, businesses, lives, and the unique lifestyle of 
Southeast Louisiana.
    Left behind to build the foundation for a future New 
Orleans is a city with little money, a crippled criminal 
justice system, an impaired levee protection system, lack of 
housing for 50 percent of its citizens, and a health care 
system clinging to life. I have lived with the beast Katrina 
for the last 5 months, but I have also been blessed with the 
opportunity to work with many of the finest first responders at 
every level of government.
    It is clear that this Nation needs to review Katrina 
planning, response, and recovery at every level to look at 
organizations with the intent to increase capability and 
compatibility. Katrina was an act of nature, and the impact was 
localized to a small population region of the United States. 
The next act could be a man-made act of terrorism. I believe 
our preparation and integrated joint responses must improve.
    The four parishes of Jefferson, Plaquemines, St. Bernard, 
and Orleans formed the Urban Area Security Initiative Region 
One for joint planning, training, and exercising of homeland 
security defined events. This includes weapons of mass 
destruction, all acts of terrorism, and natural disasters.
    Given the facts of our location on the Gulf Coast and being 
an island completely surrounded by water and limited egress 
routes out of New Orleans, our surrounding partners, along with 
ourselves, dedicated extensive time and effort in planning for 
hurricanes. The foundation of our efforts has been to develop 
effective evacuation plans.
    This is a challenge due to the limited time we have after a 
storm enters the Gulf, limited highways, and a large population 
with an anti-evacuation mentality. Driven by predictions of 
potential deaths in excess of 12,000, we worked hard with our 
regional and State partners to develop a plan and educate our 
citizens on its execution. We worked to refine this plan after 
storms over the past 2 years.
    One of the lost success stories is the evacuation in 
advance of Katrina. This highly complex joint plan moved over 
1.2 million people and saved over 10,000 lives. This was a two-
state, eight-parish effort, which included multiple law 
enforcement agencies, emergency planning offices, local media, 
and volunteer organizations.
    The continued improvement of this plan will form the 
foundation of our planning for this coming year. We are 
currently reviewing the lessons learned and will update our 
plans, and we have three specific goals.
    Goal No. 1 is to provide greater support to the citizens 
who need special assistance. Goal No. 2 is to create and 
maintain an environment where the decision to evacuate becomes 
more desirable than remaining behind. And goal No. 3 is 
implement measures to provide greater enhancement of security 
resources to the city.
    I have two specific recommendations for Federal action, 
which would improve the national capability for mass evacuation 
and sheltering. One, task Amtrak to develop and maintain the 
capability to evacuate 5,000 special needs citizens from any 
metropolitan area in the case of a declared national emergency. 
Two, identify regional military bases undergoing BRAC closures 
and convert them to national shelters capable of housing at 
least 200,000 citizens. They could be activated through a joint 
U.S. NORTHCOM and FEMA command.
    Faced with the knowledge that we would be left with 
citizens without the ability to evacuate, we worked hard to 
develop a ``refuge of last resort'' for both citizens with 
special needs, citizens without transportation, and for those 
who recognized too late the serious nature of the storm. This 
plan was designed to begin after contraflow evacuation was shut 
down and a curfew imposed on the city.
    Our plan utilized RTA buses moving throughout the city, 
picking up citizens at pre-established checkpoints, and 
transporting them to the Superdome. All citizens were 
thoroughly searched by the National Guard troops upon entering 
the dome. Security was provided by both the National Guard and 
the New Orleans Police Department. The command of the Superdome 
was underneath the command of the Police Department.
    As planners, we recognized that in a major Category 4 or 5 
storm, we would lose power, sewer/water, and further evacuation 
with Federal assets would be required. The planning window for 
this relief response was within 48 hours. For all the 
difficulties, this plan was a success. Many of the citizens in 
the dome would have become the predicted 12,000 deaths in the 
Hurricane Pam model.
    Much has been discussed about our relief response after the 
storm. I can assure you that this was a very difficult 7 days. 
I witnessed the best of human valor and the worst of human 
nature, but I want to state that I find no fault with any 
official at any level. Rather, the National Response Plan and 
the FEMA organization were totally overwhelmed by the magnitude 
of the disaster.
    I believe we must recognize that the administrative 
organization of FEMA, built around part-time contractors, has 
no operational capability to control large-scale emergency 
response. It needs to concentrate on recovery.
    Find a way to immediately utilize the only organization 
with the leadership, command and control capability, logistics 
movement centers, equipment, and training to accomplish large-
scale response--the Department of Defense. A standing joint 
staff should be established as a mission of U.S. NORTHCOM.
    Develop a prepackaged capability for communications, food, 
water, fuel, medical, and other vital supplies. And ensure that 
early relief efforts are ``push'' rather than ``pull.''
    This is the greatest Nation on Earth, and I know we can do 
better. I am dedicated to working with all of our State and 
Federal partners to ensure that we do get better.
    I want to give special thanks to Admiral Thad Allen, 
General Russel Honore, Admiral Robert Duncan, Captain Tom 
Atkin, General William Caldwell and his magnificent warriors 
from the 82nd Airborne, along with the FBI and the other law 
enforcement agencies. The only question any of these officials 
ever asked me was, ``Terry, what do you need and want?''
    America is blessed and lucky to have such leadership, and I 
am privileged to have been given the opportunity to have walked 
beside them.
    I can only reflect on Katrina. My concern is my 
responsibility to the Mayor and the citizens of New Orleans. I 
must continue, as an individual, to learn from my mistakes and 
hold myself accountable. We are currently looking down the gun 
barrel of the 2006 hurricane season due to begin June 1. We are 
projected another ``super storm'' season ahead, and we need 
your support.
    Thank you very much, Madam Chairman and Committee Members.
    Chairman Collins. Thank you. Dr. Maestri.

 TESTIMONY OF WALTER S. MAESTRI, Ph.D.,\1\ DIRECTOR, JEFFERSON 
           PARISH DEPARTMENT OF EMERGENCY MANAGEMENT

    Mr. Maestri. Good morning, ladies and gentlemen. I am 
Walter Maestri, Director of the Department of Emergency 
Management in Jefferson Parish, Louisiana.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maestri appears in the Appendix 
on page 76.
---------------------------------------------------------------------------
    I am honored to have the opportunity to appear before you 
this morning to discuss the problems inherent in evacuating 
metropolitan New Orleans. It is an issue that all emergency 
planners and response personnel--local, State, and Federal--
have focused on during the past 10 years. Please allow me to 
provide some historical background on this problem.
    In 1992, when Hurricane Andrew slammed into the Florida, 
Alabama, Mississippi, and Louisiana coasts, it not only 
devastated those coasts, it also caused all the plans emergency 
managers had developed for the evacuation of those coastal 
States to be scrapped. Andrew demonstrated that ``vertical 
evacuation,'' which was the major evacuation tool operational 
in those plans, was not an acceptable solution.
    From that time forward, all of the Gulf Coast States and a 
significant number of the Atlantic Coast States would be forced 
to physically evacuate their coastal populations. The only 
remaining functional question was the distance from the 
coastline required to move the population to ensure that they 
would survive.
    Immediately, therefore, new plans were drafted, evacuation 
studies were commissioned by Federal and State agencies, and 
strategies were discussed and developed, which would provide 
for the actual physical movement of the affected population. 
This effort was further complicated by the fact that the 
American National Red Cross began implementing a policy of not 
sheltering individuals in recognized flood inundation zones.
    In Louisiana, these new plans and strategies demanded that 
the majority of the population of the most densely populated 
region of the State be moved, approximately 1.2 million 
individuals. And furthermore, this population had to be moved a 
minimum of 35 miles to assure that they would leave the flood 
inundation zone as documented by FEMA and the U.S. Army Corps 
of Engineers' SLOSH model.
    The point I wish to emphasize is that from 1992 forward, 
all agencies of the local, State, and Federal Governments knew 
that actual physical evacuation was necessary to guarantee the 
safety of the New Orleans metropolitan area. Furthermore, 
beginning in 1994, the evacuation studies ordered by both the 
State and the U.S. Army Corps of Engineers recognized that a 
significant portion of the population of the area did not have 
adequate means of transportation, which would allow them to 
evacuate.
    In addition, these same studies recognized that it would 
take a minimum of 60 hours to have a real chance of evacuating 
this population. Simply put, everyone involved realized the 
enormity of the task contemplated and that special strategies 
would be necessary.
    In the decade leading up to the now infamous Hurricane Pam 
exercise, numerous officials of all government agencies 
addressed the enormity of the task. Following on Hurricane 
Georges in 1998, a near-miss wake-up call for the New Orleans 
metropolitan area, the Southeast Louisiana Hurricane Task Force 
and the Louisiana State Police and the Louisiana Department of 
Transportation and Development updated the evacuation plan for 
Southeast Louisiana and included within it for the first time 
the contraflow strategy in an attempt to reduce the clearance 
time necessary for the area.
    Although all involved with this first contraflow plan 
believed that it would shave a few hours off the clearance 
times, once again the lack of effective transportation for up 
to 100,000 residents of the area raised its head. From 1998 on, 
in every exercise, presentation, and meeting where evacuation 
was discussed, this issue was prominent.
    At the Hurricane Pam exercise first sessions in 2004, all 
participants recognized the evacuation problem and, 
specifically, the lack of effective transportation for a large 
segment of the population as crucial to the planning for 
metropolitan New Orleans in a major hurricane. Ron Castleman, 
FEMA Region VI Director in 2004, identified the Pam exercise as 
the major planning tool available to create a bridge between 
local, State, and Federal evacuation and recovery plans.
    And although during those initial sessions of the exercise 
evacuation was not directly addressed, it was foremost in the 
minds of all involved. Pam allowed the local and State 
officials to identify the resources necessary to achieve the 
survival of the metro area and its residents and the fact that 
they were not available in the State and local arsenal.
    In fact, during the conference calls that took place 
between local, State, and Federal officials before Hurricane 
Katrina made landfall, reference was made to the Pam decisions 
and recommendations regarding pre-positioning of transportation 
resources for evacuation of the citizens without adequate 
personal transportation abilities.
    We all know the result of the failure to provide those 
resources. And while I understand the necessity of 
investigation and analysis of what occurred and who was 
responsible for it, I respectfully request that the Committee 
consider using this catastrophic event as a method to identify 
what can be done to evacuate and shelter the citizens of any 
major metropolitan area in the Nation if a major disaster 
occurs.
    In closing, I want to sincerely thank the Committee for the 
opportunity to share with it my understanding of these events. 
I can assure the Committee that the elected and appointed 
officials of Jefferson Parish, Louisiana, stand ready to join 
with them and the President of the United States in assuring 
that such a catastrophe never happens again. Thank you.
    Chairman Collins. Thank you for your excellent testimony.
    Colonel, as Hurricane Katrina was approaching, for the 
first time in the city's history, a mandatory evacuation order 
was issued. The Mayor's staff has told us that the Mayor made 
the decision to issue that order on Saturday morning. Yet it 
was not actually issued until Sunday morning, a loss arguably 
of 24 critical hours.
    Could you tell us what happened during that day and why 
there was a delay in issuing the mandatory evacuation order 
once the decision had been made?
    Colonel Ebbert. Throughout the day Saturday, one of the 
difficulties of dealing with a mandatory evacuation was the 
definition of ``mandatory evacuation'' and the complexity of 
issuing orders to agencies without the capability of carrying 
them out.
    And in particular, there was great discussion throughout 
that day, when we looked at the large population we had in our 
hotels and the large population we had in our hospital system, 
about placing the mandatory evacuation on people without them 
having the capability to evacuate themselves or government 
having the capability to evacuate them.
    We finally reworked that into the night, and the final 
declaration, which was announced, finally exempted those two 
particular areas from mandatory evacuation. So that took a 
great deal of the time.
    But one of the positive things during that time, we had 
already worked with the State and the local agencies to start 
our three-phased evacuation, which was under control throughout 
Saturday. And as we moved into Sunday, the traffic was already 
flowing, and there was no great increase from the voluntary 
evacuation phase that we had gone through, that the Mayor and 
the media had helped communicate to the public.
    But the delay was basically designed in and occurred 
because of the difficulties with doing something that we had 
not done before. And that is one of the challenges that we face 
this year is we have to, ahead of time: One, decide what 
mandatory evacuation means. Two, what measures, legal measures, 
are we going to utilize to carry it out? Are we going to force 
people with police out of their particular homes? And then, 
three, ensure that when we issue the order that we have the 
capability to move those people.
    Chairman Collins. Yesterday at our hearing, we heard from a 
police officer who was very involved in search and rescue 
operations. He also helped to compile an after-action report 
that was completed by the command staff of the New Orleans 
Police Department.
    It specifically noted the lack of a unified command and was 
quite critical, as you are well aware, of the Office of 
Emergency Preparedness. In fact, the summary section of the 
report includes an entry which reads, ``Total failure of OEP.'' 
One the captains on the command staff wrote in his report, 
``OEP needs to be revamped.'' Another captain wrote, ``Unified 
command was never established.''
    A third captain wrote, ``The Office of Emergency 
Preparedness needs to be revamped. If their role is to have us 
prepared to handle a disaster such as this, they FAILED. They 
lacked a plan, did not provide the necessary equipment, 
provided no direction or leadership.''
    This is language directly from three of the city's first 
responders, and they are those who launched the search and 
rescue operations to save the lives of New Orleans residents. 
How do you respond to the criticisms in that report?
    Colonel Ebbert. I think there are some valid criticisms in 
that report. I think those officers, especially Captain Bayard 
who testified yesterday, is a wonderful police officer who is 
dedicated to his duty, who carried out his mission with the 
capabilities that he was given.
    Equipment, I agree with. But I think we need to go back and 
then, as the homeland security committee, look at the 
definition of what I am able to purchase and what I am not able 
to purchase with the money that the Federal Government gives 
me.
    Life-saving boats and motors were turned down by the 
Department of Homeland Security under our grant program. Twice 
training that I requested for search and rescue, waterborne 
training for fire and police, was turned down because it did 
not meet the parameters of the defined grant process.
    So I think we need to look hard as a Nation in these 
dollars to provide all-hazards approach. Not just weapons of 
mass destruction, not just terrorism, but utilize those dollars 
to the special needs of different communities throughout the 
Nation.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman, and thanks to 
the witnesses.
    Dr. Maestri, I thought that your opening statement was very 
helpful. And in some sense, your painstaking review, from your 
own experience over the years, of the various warnings about 
what happened and the need to do something to evacuate those 
who could not evacuate themselves is painful.
    In that statement, you referred to the ``conference calls 
that took place between local, State, and Federal officials 
before Hurricane Katrina made landfall.'' I want to ask you a 
specific question, which is, was Dr. Mayfield on those calls?
    Mr. Maestri. At times, Dr. Mayfield was on those calls. He 
certainly had representation on all of those calls. The 
National Weather Service begins the conference calls by going 
through and telling us the present state of the hurricane.
    Senator Lieberman. And therefore, I presume that 
representatives at the Federal level of FEMA were on the calls? 
Representatives of the Governor and the Mayor were also on the 
calls?
    Mr. Maestri. Absolutely, Senator.
    Senator Lieberman. And can you tell us in a little more 
detail when those calls began? How soon before Monday, August 
29, when Katrina hit landfall?
    Mr. Maestri. Approximately 3 days before the hurricane made 
landfall.
    Senator Lieberman. So it would be Friday?
    Mr. Maestri. That is correct. Those conference calls began, 
in fact, late Thursday afternoon and then began in earnest on 
Friday morning.
    Senator Lieberman. Do I understand correctly from my staff 
that you have had a long-time professional association with Dr. 
Mayfield?
    Mr. Maestri. Yes. I have known Max Mayfield for 
approximately 10 years.
    Senator Lieberman. Right. And did he call you directly, in 
addition to the conference calls you were on?
    Mr. Maestri. Yes, Senator. I received two phone calls from 
Max Mayfield, one earlier in the week.
    Senator Lieberman. Do you remember what day it was?
    Mr. Maestri. It was probably Monday or Tuesday.
    Senator Lieberman. A full week or a little bit less before 
the hurricane?
    Mr. Maestri. That is correct.
    Senator Lieberman. Right.
    Mr. Maestri. And it was a warning that this was, in his 
opinion, a very serious storm and a storm not to be ignored at 
all levels.
    Senator Lieberman. Do you--I am sorry. Go right ahead.
    Mr. Maestri. Then, again, I received a phone call on 
Friday, and it was a phone call that, truthfully, changed my 
life and the life of the entire metropolitan New Orleans area. 
Because in that phone call, he told me that he was now 
convinced that the storm was coming to New Orleans, that it 
would make landfall, in his opinion, as a Category 4 or 5 
storm, and that it was, in his words, ``the big one.''
    Senator Lieberman. Right.
    Mr. Maestri. This is the one that we had been waiting for.
    Senator Lieberman. Right. So it is fair to say that there 
was no ambiguity in his warnings?
    Mr. Maestri. I saw no ambiguity at all.
    Senator Lieberman. And those were calls as of late 
Thursday, I believe you said, on which Federal, State, and 
local representatives were present?
    Mr. Maestri. Correct, Senator. In fact, at the conference 
call that followed with the other members of the southeast task 
force, I elaborated to them, because of my personal 
relationship with Max, what he had shared with me.
    Senator Lieberman. Right. In those conference calls, did 
Dr. Mayfield, to the best of your recollection, specifically 
speak to the need for pre-storm evacuation?
    Mr. Maestri. Absolutely.
    Senator Lieberman. Do you recall what he said?
    Mr. Maestri. He told me personally for Jefferson Parish to 
make sure that the elected officials understood the upcoming 
events and what they could mean, the catastrophe, and to 
implement and to use all authority that I had to implement the 
evacuation of the metropolitan area.
    Senator Lieberman. Do you know whether Dr. Mayfield made 
other calls to individuals in the area that he knew, in 
addition to the conference calls?
    Mr. Maestri. I know that he asked me for the telephone 
numbers and/or means of contacting other elected officials and 
appointed officials in Southeastern Louisiana because he wished 
to share with them that, in his opinion, this was an extremely 
serious hurricane and one not to be taken lightly.
    Senator Lieberman. He is a real professional, as anybody 
who has met him knows, but also as we watched him on the TV 
leading up to Katrina. Can you describe his mood as you heard 
it on the phone calls?
    Mr. Maestri. Senator, I smile because I have known Max for 
many years, as I indicated. And Max Mayfield does not give 
those warnings lightly.
    Senator Lieberman. Right.
    Mr. Maestri. When he called me and told me what to expect 
and what, in his opinion, was coming, I took it very seriously, 
and I think anyone who spoke to him did. I immediately called 
the elected local officials together, briefed them on what he 
had told me, and indicated that, therefore, in my opinion, I 
thought it was necessary for us to take all effective steps 
then to begin preparations for a very serious event.
    Senator Lieberman. In some sense, to use the convenient 
historical metaphor, Dr. Mayfield became the Paul Revere of 
Hurricane Katrina. My impression is not just on television, but 
he was so personally agitated by what his scientific knowledge 
told him was coming that he just was calling anybody he knew or 
anybody in authority in the Gulf Coast to warn people that this 
was the big one. This was the worst.
    How do you explain--and again, we focused on Hurricane Pam, 
the fictional exercise. You have described the specific 
warnings and, in this case, the focus of this hearing, the 
compelling need for pre-storm evacuation for those who couldn't 
evacuate themselves, particularly. But here now, we have Dr. 
Mayfield in the days leading up, saying, ``This is it.''
    It seems to me, he couldn't have done anything more than if 
he had taken a two-by-four and hit people over the head. Why 
wasn't something more concrete done to provide for the pre-
storm evacuation of the poor, of the aged, of the infirm?
    Mr. Maestri. First and foremost, our problem in Jefferson 
Parish is not as significant as that in the city. But I think--
--
    Senator Lieberman. You mean because of the population?
    Mr. Maestri. That is correct. Because of the economic 
differential. Jefferson Parish is the quintessential bedroom 
community suburb surrounding a metropolitan area in the United 
States.
    But I think the issue that you are asking about has to do 
with the available resources. And the problem that we faced and 
the problem that had been identified, and I think the problem 
that continues, Senator, is that metropolitan areas in the 
United States do not have and/or control the resources 
necessary to effectively and physically evacuate that 
population without personal transportation assets to move 
themselves.
    Senator Lieberman. My time is up. I would like to come back 
to that. Thanks very much, Mr. Maestri.
    Chairman Collins. Senator Warner.

              OPENING STATEMENT OF SENATOR WARNER

    Senator Warner. Thank you, Madam Chairman.
    My question to you Colonel Ebbert, first I wish to say how 
grateful we are as a Nation for your distinguished service to 
our country during the U.S. Marine Corps.
    Colonel Ebbert. Thank you.
    Senator Warner. And I saw that you were commanding officer 
of the Basic School. And one of my teachers in life was Colonel 
Leftwich, who was my EA, as you may recall?
    Colonel Ebbert. Yes, sir.
    Senator Warner. This is a technical question, but it is one 
I have been pursuing for some time with the Secretary of 
Defense, and they are studying it. And that is the doctrine of 
posse comitatus. And for those who are not familiar, that 
doctrine prohibits active duty, regular military from 
participating with local law enforcement in a variety of 
functions, primarily those of apprehending citizens for alleged 
infractions of the law.
    Now as we watched the tragic events unfold as a consequence 
of this hurricane, the local National Guards and others came 
in. The active duty forces came in. And you presumably had an 
opportunity to observe them. As a matter of fact, in earlier 
statements, you have praised them for their extraordinary 
service, and I think it is recognized across America that the 
uniformed individuals performed as best they could to help and 
with great commendation.
    But did the inability of the active forces to participate 
with the Guard in such incidents as may have occurred with 
regard to law enforcement, was that an impediment? And should 
this country re-examine the doctrine of posse comitatus in the 
light of this tragedy to see whether or not some exceptions 
should be written into that law?
    I have written to the Secretary of Defense on this subject 
and urged that this issue be reviewed. And I am just wondering 
if you had any firsthand observations and any opinion that you 
would like to contribute?
    Colonel Ebbert. I think that there is through this trying 
time, we have already seen a model start to evolve, and I 
believe that you can jointly operate in an environment, which 
we finally came into being about Saturday after the storm.
    And that was with the Office of Homeland Security through 
the Coast Guard and Admiral Thad Allen being the principal 
Federal official. The National Guard and the Title X regular 
forces both reporting up that chain of command into a joint 
command, without placing the active duty forces in charge of 
the National Guard.
    I do believe that we need to go back and review all these 
items. We did not have an issue once we got on the ground with 
General Caldwell. We were fully aware of what his authorization 
in the way of law enforcement capability was, and we did not 
put those 82nd Airborne troops in a law enforcement mode. We 
used the National Guard and the NOPD to enter homes when we 
were searching and rescuing, where they had to make forced 
entry. But we used the Guard and the NOPD to do that.
    Where the 82nd came in was just the presence, the arrival 
of the presence of one of our most distinguished divisions in 
the U.S. Army had a calming effect on the population. It had a 
calming effect on those first responders who were coming from 
outside areas to assist us. And I think that it brought order 
and discipline to a city that was struggling. It also showed 
hope that the Federal Government was on the scene and providing 
resources to help us in dire need.
    But I do believe that you can do this without putting Title 
X forces in the line of fire in law enforcement, but still put 
them in the line of fire. They are the only organization that 
has the command and control, radios, people, logistics 
movement.
    We never had a logistics movement center ever in this 
operation. We never set up the joint command center because we 
didn't have those capabilities. All those are inherent in the 
regular forces.
    Senator Warner. Let me just give you this example. Often 
they operated together, the Guard and the regular forces. And 
the uniforms, as you well know, are so similar that a citizen 
cannot, in the urgency of the moment, distinguish. And if a 
citizen needed help and he went to a joint patrol, and it 
required some law enforcement activities, the regular soldiers 
would have to step back and allow the Guard to perform the 
missions.
    And that could be misunderstood, and it could lead to 
confusion. But so far as you know, that didn't occur?
    Colonel Ebbert. That didn't occur, but it is a very 
distinct possibility that I think it be prudent to look at 
those special needs when you place those Title X troops in a 
situation where, beyond their control, they may be faced with 
that type of an issue.
    Senator Warner. I thank the witness. Thank you.
    Chairman Collins. Thank you.
    Senator Lautenberg, I would invite you to go ahead with 
your questions now. I am going to leave for the floor. And if 
Senator Carper wants to stay and do his questions, I would just 
ask you recess the Committee until 11:25, or you will have an 
opportunity afterwards because we will have a second round, 
whichever your preference.
    Senator Lautenberg. So, do I understand it correctly that 
you are prepared to adjourn now, pick up where we are?
    Chairman Collins. Yes. But if you want to----
    Senator Lautenberg. Well, I think it would be a good idea 
because to rush through such an important array of witnesses--
--
    Chairman Collins. I think so, too.
    Senator Lautenberg [continuing]. That I would like to have 
a chance to talk to them.
    Chairman Collins. The Committee will stand in recess until 
11:25. At that time, we will resume with Senator Lautenberg's 
questions.
    [Whereupon, at 10:55 a.m. the Committee was recessed, to 
reconvene at 11:25 a.m. the same day.]
    Chairman Collins. The Committee will come to order. Again, 
I thank the witnesses for remaining so that we could resume the 
questioning.
    And we left off with Senator Lautenberg, so I would call 
upon him.

            OPENING STATEMENT OF SENATOR LAUTENBERG

    Senator Lautenberg. Thank you, Madam Chairman. I start by--
as soon as I catch my breath from running down the hall. 
[Laughter.]
    I start by calling attention to the fact that Amtrak or an 
alternative method of transportation creeps into so many 
emergency situations. Notably, the worst catastrophe that we 
had on our land when the trade towers were taken down on 
September 11.
    And we learned then that Amtrak was the only remaining 
transportation access that we had. Aviation had shut down. 
Impossible to leave. And we see it again now in Katrina that, 
Colonel Ebbert, your commentary strikes me as being right on, 
hitting the nail on the head.
    And when I think of, Madam Chairman, I would hope that one 
day we would have a hearing on the relative value for our 
security interests in the role that Amtrak would play, and I 
hope that we will be able to do that in the not too distant 
future.
    Colonel Ebbert, I noted in your testimony that one of the 
things that you called for in a several-point program was to 
have an Amtrak available that would permit evacuation of 5,000 
people. Well, I think that is a perfectly obvious, reasonable 
request whenever any kind of a situation calling for evacuation 
is there.
    But right now, what we face is the determination to have 
Amtrak abandon its national mission and peel off to segments, 
depending largely on the States and the States financing. What 
might it be like without an Amtrak standing by? Even though at 
the time of Katrina, we had an empty train, Mr. Bradberry, 
waiting for people to board and get out of there, and we had 
room for 600 on the train, only 100 showed up. There was so 
much confusion.
    What do you think about the notion, do you think our 
country's security might be impaired in any way if Amtrak or a 
national rail system were not in place?
    Colonel Ebbert. In answer to your question, Senator, I 
believe that we have a capability that we have not utilized 
effectively. I think that we have basically a federally 
supported commercial system of Amtrak, which has capability 
across the Nation to assist in this very serious nature of mass 
evacuation. And I think that we need to look at--currently, we 
try to work that at a local level, and we are at the bottom of 
the barrel working up.
    And we have had----
    Senator Lautenberg. I heard you--forgive me because time is 
so short. I heard you and your colleagues at the table call for 
more Federal resources, more help.
    Dr. Maestri, simple things like communications equipment? 
If you are an emergency response organization, we had that 
terrible thing at the World Trade Center when fire departments 
couldn't communicate with police departments or with their own 
departments. The Federal Government ought to complete its 
mission in protecting our citizens and not just do it overseas, 
but do it within the country.
    So I think we would be far worse off in terms of our 
ability to manage our desperate needs for evacuation. And by 
the way, there is no exclusive on having the kind of things 
that we have seen, either from terrorists or natural disaster, 
or how about a nuclear plant? We abandoned two nuclear plants 
in this country at great cost after they were built, ready to 
function, because we found out that we couldn't get people out 
of there if we had to get them out.
    My God, what do we have to do to make sure that we have a 
facility capable to respond to emergencies like that? Mr. 
Bradberry, and I noticed something that you said in commentary 
in the past, and that was that your Department of 
Transportation could not be, did I understand correctly, a 
transit agency?
    Mr. Bradberry. We are not a transit agency.
    Senator Lautenberg. Well, how does that square with your 
obligation to provide transportation access for the people in 
your State? When you say you are not a transit agency, doesn't 
it go beyond simply the definition of transit to say, ``Hey, 
our mission is to carry people, place to place.'' And 
particularly when a disaster like the one you witnessed takes 
place?
    Mr. Bradberry. Yes, Senator, the pure definition, you are 
absolutely correct. Historically, however, the State's approach 
to transportation has been on infrastructure fundamentally and 
not mass movement of people. That responsibility has 
historically laid with the National Guard.
    The new ESF-1 function identifies the Department of 
Transportation as playing a lead role in transportation, and we 
accept that responsibility. Although at the time, we had issues 
with that transfer of authority to the Department of 
Transportation. We had issues with that. But in a pure sense of 
the word, I believe you are right.
    I am not sure that any transportation in the country, any 
transportation department in the country, however, would 
encompass transportation of people in all States, like you 
might indicate.
    Senator Lautenberg. Well, our local rail system is under 
the jurisdiction of the Department of Transportation, and it 
seems to me it is such a natural fit.
    Thank you, Madam Chairman.
    Chairman Collins. Thank you. Welcome, Senator Akaka. It is 
nice to welcome you back from Hawaii.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. Thank you very much, Madam Chairman. It is 
good to be back with you and the Ranking Member, Joe Lieberman, 
and to continue talking about Katrina and to try to reach a 
conclusion about what happened and how we can do it better the 
next time. That is my intent here.
    Colonel, welcome. I want to welcome the panel here. 
Colonel, in response to a question by Senator Collins about the 
order for mandatory evacuation, you testified that it took from 
Saturday morning to Saturday evening to refine the list of who 
should be ordered to evacuate. And I understand that your 
office had the responsibility to review the evacuation of 
nursing homes.
    There are several parts to my question. One is did you 
review those nursing home evacuation plans and did you find 
them workable? Second, in line with Senator Collins' question, 
can you give us an idea of why you decided not to order 
hospitals and hotels to evacuate? Besides hospitals and hotels, 
what other questions were raised about whom to evacuate that 
took so long to decide?
    Colonel Ebbert. On the first question, on the review of 
plans, I would like to split that into two different areas. One 
is planning for assisted living homes, and another one is 
planning for hospitals.
    The homes, as part of their registration and certification 
by the State, have to devise and submit to the State an 
evacuation plan, and it is part of their certification process. 
At the city agency, we are not in that review process.
    On the hospitals, we had never evacuated our hospitals, and 
we have about 2,500 patients that were serious patients in the 
hospitals. And the intent was never there because of the 
capability of, one, how do you move very seriously ill people 
multiple times in a 4- or 5-month period of time? Two, where do 
you take them to? When we evacuated after the storm this time, 
we overloaded systems all over the United States by moving 
these individual patients.
    What we are looking at in this year, obviously, is working 
with the hospitals to probably develop a meeting point of who 
is a serious ICU type of patient versus an ambulatory patient 
that could be moved over buses or rail. And I think it will 
probably be a combination of evacuation and taking some of the 
flood mitigation money and strengthening the capability for a 
limited number of hospitals to maintain those very seriously 
ill people that cannot be moved.
    So we are looking at a combination, Senator, to do both of 
those.
    Senator Akaka. Yes, and part of my question was on your 
review of the evacuation plans for nursing homes and hospitals, 
the question was did you feel they were workable?
    Colonel Ebbert. The nursing homes or special needs homes 
had plans, and we were very successful at evacuating those 
people. The hospitals, we did not have approved evacuation 
plans for because they were not included as being required to 
evacuate.
    Senator Akaka. Thank you for answering that one. I thought 
maybe that you said you did not have that responsibility about 
evacuation plans for hospitals and homes.
    Mr. Bradberry, I understand that one of your 
recommendations is that a State or city should agree to a 
memorandum of understanding with transportation companies to 
retain the use of vehicles for an evacuation.
    In Hurricane Katrina, we found that even though companies 
had contracted to provide vehicles, many of the drivers did not 
report for duty. And there is also a concern that many 
hospitals and nursing homes contracted with the same companies, 
making it impossible to meet that demand.
    Do you think the State has a responsibility for reviewing 
all evacuation plans, including the private entities such as 
nursing homes, to ensure that there are adequate plans? And if 
the plans are deemed inadequate, what is the current 
enforcement mechanism?
    Mr. Bradberry. I think that the State does have an 
obligation to be part of a team to evaluate all of the 
emergency plans that are, indeed, in effect. And just like U.S. 
DOT has the responsibility around the national plan, we ought 
to be in partnership with U.S. DOT. We have not been fully in 
partnership with U.S. DOT, as evidenced by the fact that prior 
to Katrina, we were working on a new plan whereby the 
Department of Transportation of Louisiana was assigned the ESF-
1 function.
    It was new for us. It was a plan in transition, and I would 
venture to say and I would say on record that plan was, indeed, 
new and in transition for not only the State of Louisiana and 
the Department of Transportation, but for the U.S. Department 
of Transportation as well. I think we heard Secretary Mineta 
say that at the time of Katrina only 10 percent of that plan 
was, indeed, done.
    So there is a lot of work to be done, and I think the 
responsibility lies with all of us to assure that adequate 
plans and contracts and relationships and ties are in place.
    Senator Akaka. Thank you very much, Madam Chairman. My time 
has expired.
    Madam Chairman, I have a statement I would like to have 
included in the record in the proper place, and I may have 
questions to include in the record. Thank you.
    Chairman Collins. Without objection.
    [The prepared statement of Senator Akaka follows:]

                  PREPARED STATEMENT OF SENATOR AKAKA

    Madam Chairman and Ranking Member Lieberman, I want to salute you 
for the excellent and dedicated way in which you have been leading this 
investigation.
    I regret that I was unable to be here last week when the Committee 
reconvened to continue its extensive set of hearings on Hurricane 
Katrina. However, I look forward to participating in the hearings over 
the next few weeks.
    In the State of Hawaii, we have experienced many natural disasters 
from hurricanes and tsunamis to floods and brush fires. Our 
geographical location in the middle of the Pacific Ocean, makes us 
extremely aware of the importance of disaster preparedness. Evacuating 
our residents who reside on different islands pose a difficult problem. 
To address these problems, the Hawaii State Civil Defense leads the 
State in providing rapid assistance during disasters. It collaborates 
with the National Oceanic and Atmospheric Administration's Central 
Pacific Hurricane Center and National Weather Service, the Pacific 
Tsunami Warning Center, the U.S. Geological Survey's Hawaiian Volcano 
Observatory, and other organizations to assess potential dangers and 
appropriate responses.
    In addition, the State of Hawaii has developed one of the most 
sophisticated warning and evacuation plans in the United States. The 
National Oceanic and Atmospheric Administration (NOAA) has deployed an 
extensive network of deep sea buoys as part of its Deep Ocean 
Assessment and Reporting of Tsunamis (DART) program. These devices 
provide real time information which is critical for both ordering and 
avoiding evacuations.
    The Committee's efforts to address the shortfalls regarding certain 
decisions that were made and others that were not made, will hopefully 
lead to constructive reform of our civil defense systems. In addition, 
it is important that these systems work collaboratively with the 
Federal agencies.
    As we continue our oversight responsibility pertaining to the 
Federal, State, and local response to Hurricane Katrina, it is 
important to remember that accurate and timely information could save 
hundreds of lives. This is an issue that we must not neglect as we 
focus on how to improve our disaster response system. Evacuations are 
costly both in terms of execution and potential economic shutdown. 
Ensuring reliable and timely information about the impact of a disaster 
should be a critical component in any Federal emergency response 
planning.
    Hawaii has benefited from Federal assistance, but it has also taken 
responsibility for the quality of the information its emergency 
planners receive. We have learned to be self-reliant in Hawaii because 
we know that we have no where to retreat to in a disaster and that it 
may be a week or more before we receive assistance from the mainland.
    The University of Hawaii, for example, has developed sophisticated 
models to predict the impact of a tsunami on our islands. They have 
been built so that real-time information from the DART sea buoys can be 
quickly inputted to make accurate projections of land fall.
    In Hawaii, local communities practice responding to tsunamis on a 
regular basis. There are over 300 warning sirens in communities around 
the islands, some of which have voice capacity. We have Emergency 
Operations Centers located in every jurisdiction with more than 2,500 
people. In addition, evacuation plans are printed and widely 
distributed. Every phone book contains a copy of the evacuation plan 
and other emergency advice. Residents of Hawaii are encouraged to have 
emergency supplies to survive for a long period of time on their own.
    We in Hawaii know that our plans are not perfect. Indeed Hurricane 
Katrina has reminded us of some of the ways to improve. Tsunami 
evacuation plans are being updated. Evacuation plans for the sick and 
elderly are also being reviewed.
    That is why the importance of this hearing surpasses the Gulf 
Region. We all have much to learn from what went wrong in the Gulf 
Coast as well as what went right. There is much to make one proud. 
First responders did an extraordinary job in the Gulf: They responded 
with bravery and dedication. But we need to do better.
    Thank you Madam Chairman. I welcome our witnesses and look forward 
to their testimony.

    Chairman Collins. Thank you.
    Mr. Secretary, the State of Louisiana's Emergency 
Operations Plan clearly designates your Department, the 
Department of Transportation and Development, as the primary 
agency responsible for developing plans and procedures to 
``mobilize transportation to support emergency evacuation for 
at-risk populations.''
    During an interview with the Committee's investigators, you 
conceded that the Department had ``done nothing to fulfill this 
responsibility. We put no plans in place to do any of this.''
    I know you have stated that you disagreed with having the 
Department tasked with this assignment. But nevertheless, the 
plan is very clear that your Department did have the 
responsibility. How is it that the Department did not carry out 
such a clearly designated and important duty?
    Mr. Bradberry. Yes, Madam Chairman. Admittedly, I will 
state that in April 2005, I did, indeed, sign the plan that 
said that we would accept the responsibility for the ESF-1 
function. However, I signed it under the spirit of continuous 
improvement, that we wanted to keep things moving.
    We went on record to say that there needs some work there. 
We don't necessarily agree with the idea that the Department of 
Transportation needs to have this transportation function. 
Clearly, we didn't have it before.
    And so, to keep things moving, to assure that we did, 
indeed, at the end of the day, have a plan and not to get 
caught up in the bureaucratic channels that normally happen 
with things like this, I signed it, and I will admit to that. 
At the same time, I want to go back to Hurricane Pam and that 
exercise and sort of build a story on relationships, on how 
this came to be.
    In 2005, the Hurricane Pam exercise, if you didn't know, 
did not have the transportation function as part of its 
exercise. That exercise was initially targeted for a 14-day 
exercise. It got reduced to 8 days by FEMA because it didn't 
have the resources to completely do the exercise.
    So at the time that I signed the approval and the 
acceptance of ESF-1, clearly, first and foremost, we didn't 
have and didn't go through an ESF function relative to 
transportation in the Pam exercise. That didn't take place 
until July 2005, and then September 9, 2005, we got a report 
back from IEM that basically says and lined out what we learned 
about transportation in that Pam exercise of July 2005.
    And I guess, Madam Chairman, the other point I wanted to 
make--so we clearly had a plan in transition. If, indeed, our 
new plan was based on the 15 ESF functions as defined by the 
National Response Plan, and at that time, when I signed the 
plan, we didn't even have closure on the transportation side of 
it because we haven't had an exercise in that plan, it 
reinforced to me that I wasn't ready to really commit to that 
responsibility, although I wanted, again, to keep the plan 
moving.
    It also needs to be said, and I will take the personal 
responsibility for my Department, that clearly I had a point 
man in that position that, hindsight is 20/20 but, in my 
opinion, lacked the skills, lacked the sensitivity of the 
importance of that and didn't inform me and my staff 
appropriately along these lines.
    So, again, I take full responsibility for that, but I 
believe that, indeed, it was a plan in transition. And I think 
we have indications to illustrate that. And we placed a lot of 
our effort on getting people out. We placed a lot of time, 
which is part of ESF-1, building a plan, building a good plan, 
and we spent a lot of time on it.
    I personally spent a lot of time with State police and 
putting a team together and making sure that we learned from 
Hurricane Ivan, that we built an evacuation plan that was as 
good as it could be and got as many people out as we could. And 
I think we were fairly successful at that in getting almost 1.3 
million people out of the city.
    And we had enough time, in my opinion, to get the remaining 
people out had they wanted to get out, and those that couldn't, 
we needed to do a better job coordinating responsibilities with 
other agencies.
    Chairman Collins. Did you ask the governor to assign the 
responsibility to another department or agency?
    Mr. Bradberry. No, ma'am. We did not.
    Chairman Collins. Prior to Katrina making landfall, did you 
have any conversations with the Mayor of New Orleans or with 
anyone from the Orleans Office of Homeland Security concerning 
the large number of people left in the city or that were likely 
to remain in the city who did not have access to 
transportation?
    Mr. Bradberry. No, ma'am. I did not personally, and my 
staff did not. In my previous testimony, I also made a 
statement that I had a fairly high confidence level that a plan 
was in place to move those types of people out of the city.
    And in May of last year, when we advertised and built our 
evacuation plan for the citizens, we made 1.5 million maps, and 
we communicated that plan across Southeast Louisiana and 
beyond. I remember at the press conference and the unfolding of 
this map and this plan, a reporter asking Chief Mathews in New 
Orleans whether or not the city had a plan for evacuating those 
types of individuals, that is the homeless and people who 
couldn't afford to get out.
    And I recall that the answer to that was we absolutely do, 
and we are continuing to work on it, and we will have it ready 
for the hurricane season. That essentially told me what I had 
assumed all along, which was probably a wrong assumption, that 
we had plans in place to do that.
    Chairman Collins. I understand the confusion over the 
city's role and state of preparedness, but I would note that 
the City of New Orleans' emergency plan specifically says that 
local government resources may not be sufficient to provide for 
the transportation and care for those citizens with 
extraordinary special needs.
    So the city anticipated and said in writing as part of its 
plan that it would not likely be able to take care of the 
transportation and needs of citizens with special needs. That 
is why the disconnect here is really troubling when you look at 
who got left behind.
    Dr. Maestri, just one quick final question for you. Did you 
think that the contraflow evacuation of the city should have 
begun earlier than it did?
    Mr. Maestri. Well, in the Katrina exercise, we were onboard 
with the model that the State had presented. However, in 
previous hurricanes and in previous implementations, we had 
difficulty with the staging of the contraflow effort.
    Chairman Collins. Thank you. Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    Secretary Bradberry, I just want to come back to the 
exchange. First off, I think that your Department and yourself 
deserve some credit for facilitating the evacuation from New 
Orleans of the people who could get out.
    But I must say I don't feel that you have acknowledged 
enough responsibility here this morning for the failure to 
implement those parts of the State emergency plan that required 
you to do more than that. I mean, that plan, which is the State 
of Louisiana Emergency Operations Plan, it is Exhibit 2,\1\ and 
I am going to quote, ``The Plan requires your Department . . . 
to develop plans and procedures to mobilize transportation to 
support emergency evacuation for at-risk populations.''
---------------------------------------------------------------------------
    \1\ Exhibit 2 appears in the Appendix on page 107.
---------------------------------------------------------------------------
    And I know in your pre-hearing interviews with our staff, 
you indicated that you felt the Department was not in the bus 
business, as it were, and that with respect to the plan's 
requirement to develop procedures to mobilize in an emergency, 
that you had done nothing to fulfill this responsibility.
    Looking back at it, it was more than just in transition. 
For whatever the reason, the responsibilities that you were 
given under the plan, you just didn't fulfill.
    Mr. Bradberry. Well, I think, with all due respect, 
Senator, clearly we were in transition. I don't think there was 
any other agency, nor the Federal Government--i.e., DOT--that 
had a complete plan. There was no plan in our EOC that showed 
that we were operating under that plan.
    We couldn't come to closure. Hurricane Pam, indeed, was a 
mechanism by which we were to justify that plan. It clearly 
wasn't to a point where we had tested the transportation 
function. That wasn't held until July. It all points to me--and 
the staff that I had and the focus we were putting on----
    Senator Lieberman. Excuse me, because my time is limited. 
Were you working on it?
    Mr. Bradberry. We were working on evacuation, contraflow, 
getting that as perfect as we could. Learning from those 
lessons.
    Senator Lieberman. Yes. But again, that doesn't deal with 
the at-risk population, the population that got left behind.
    I want to go on because of the time. Colonel Ebbert, as we 
look back, our investigators find different places where you 
see missed opportunities. And one of them, I reference it as 
Exhibit 8,\1\ but basically I will describe it to you. The 
exhibit contains draft memoranda of understanding between the 
City of New Orleans Regional Transit Authority, the school 
board, and even Amtrak for assistance in evacuation, including, 
from the way I read it, pre-storm evacuation.
---------------------------------------------------------------------------
    \1\ Exhibit 8 appears in the Appendix on page 129.
---------------------------------------------------------------------------
    I am reading from one of the drafts. ``We are anticipating 
that evacuation, [in this case] by the buses, will commence 
immediately following this declaration [by the Mayor] for a 
voluntary evacuation.'' These were negotiations entered into by 
Dr. Stephens, who we will hear from, I believe, on the second 
panel, earlier in 2005.
    What happened? Why were those negotiations never completed 
so that those assets were in place, in the days before Katrina 
struck, to get the at-risk population out?
    Colonel Ebbert. Those were ongoing, and they really go back 
to 2004, when we started negotiating with those external 
agencies, which are not city agencies, and trying to draft and 
come to an agreement on the MOUs. There were a lot of issues, 
and we are still dealing with the Amtrak issues. You had to 
deal with the individual liabilities that people were willing 
to accept, both financially and liable.
    Senator Lieberman. Excuse me again for interrupting, but 
just because of the time. I know we have another panel. But 
basically, what I am hearing you say is that it got into a lot 
of legal back and forth, even though I am sure looking back on 
it, you wish that you had completed those agreements for those 
assets?
    Colonel Ebbert. Absolutely.
    Senator Lieberman. Yes. And again, in the context of the 
time-is-of-the-essence Pam warnings and in Hurricane Ivan, I 
presume it is painful for you to look back on it and see that 
those MOUs were not carried forward?
    Colonel Ebbert. Absolutely. I think that the anchoring of 
those MOUs is the future in evacuation planning in the City of 
New Orleans.
    Senator Lieberman. I hope you get them done before June 
when hurricane season starts again.
    Colonel Ebbert. We are working on it, sir.
    Senator Lieberman. OK. Dr. Maestri, a final question, 
which, in some ways gets back to where we were when I ended the 
first round of questioning, is about the fact that everyone was 
on notice, both local, State, and Federal. Dr. Mayfield was 
calling everybody.
    One of the interesting pieces of common wisdom in this 
field that we keep hearing, that I think we have to challenge, 
is that pre-storm evacuation is not the province of the Federal 
Government for a variety of reasons. Although I must say, it 
does seem to me that the various Federal actions here--the 
Stafford Act, the National Response Plan of the Department of 
Homeland Security--all give Federal agencies such broad support 
that it would include this.
    And so, I wanted to invite you, based on your long 
experience, to comment on that and in some sense to tell us, 
looking back at Katrina, what you made and make today of the 
Federal Government's lack of action to assist in pre-storm 
evacuation?
    Mr. Maestri. Senator, I believe that no metropolitan 
community in the United States has the ability to provide the 
resources necessary to evacuate a population that does not have 
the ability themselves to move from the disaster or the 
approaching disaster. Therefore, it will be always necessary, 
in my opinion, that we look to the Federal Government and to 
the agencies of the Federal Government to assist in supplying 
those resources.
    The Pam exercise, although it didn't address transportation 
directly, one of the undergirding assumptions throughout was 
that if we were going to avoid that massive death toll that Pam 
predicted, we would have to have those resources.
    If you take the entire bus fleet that is available to a 
metropolitan area for its normal transportation operations, it 
would not meet the need that was faced in New Orleans for 
100,000 folks who didn't have adequate transportation and had 
to leave.
    Senator Lieberman. Right. Even the discussion that we have 
heard at one point about the need for 600 buses really wasn't 
enough, was it?
    Mr. Maestri. No, it was not.
    Senator Lieberman. To get 100,000 people out of town in a 
day or two? Well, I appreciate your answer.
    It may be some comfort and, in some sense, an 
acknowledgment by the Federal Government itself that they have 
the authority to do this. That is, I am sure the three of you 
know, when Hurricane Rita came, the Federal Government 
mobilized an enormous array of resources pre-landfall, 
including, directly, a massive pre-landfall evacuation. And we 
look back regrettably, painfully, ruefully, that it did not 
happen in Hurricane Katrina.
    Thank you. Thanks, Madam Chairman.
    Chairman Collins. Thank you very much.
    I want to thank this panel for their testimony today. It 
has been extremely helpful, and we appreciate the fact that you 
are very candid in talking about the shortcomings as well as 
your pledges for improvement.
    I would now like to call forward our second panel. This 
panel will discuss the extraordinary challenges of evacuating 
hospital patients, nursing home residents, people receiving 
home health care, and other individuals with special needs. I 
want to thank our next panel for joining us as well today.
    Dr. Jimmy Guidry is the State Health Officer of Louisiana 
and also serves as the Medical Director for the Louisiana 
Department of Health and Hospitals. His Department is 
responsible for the special needs population at the State 
level, and he participated in the Hurricane Pam exercise in 
2004.
    Dr. Kevin Stephens is Director of the New Orleans 
Department of Health. He is on the faculty of Xavier 
University, Dillard University, LSU Medical School, and Tulane 
Medical School. Dr. Stephens--is it Stefans or Stephens?
    Dr. Stephens. Stephens.
    Chairman Collins. Dr. Stephens' Department cares for the 
city's special needs population in the event of a hurricane or 
other natural disaster.
    And finally, we will hear from Joseph Donchess, who is an 
attorney who has been the Executive Director of the Louisiana 
Nursing Home Association for nearly 20 years. His association 
represents approximately 260 facilities, amounting to 80 
percent of the State's nursing homes.
    I welcome you all to the Committee and look forward to your 
testimony.
    And Dr. Guidry, we will start with you.

TESTIMONY OF JIMMY GUIDRY, M.D.,\1\ MEDICAL DIRECTOR AND STATE 
  HEALTH OFFICER, LOUISIANA DEPARTMENT OF HEALTH AND HOSPITALS

    Dr. Guidry. Thank you, Madam Chairman and distinguished 
Senators for inviting me here today. I do feel that when it 
comes to the health care of the folks of Louisiana, our story 
hasn't been told.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Guidry with an attachment appears 
in the Appendix on page 81.
---------------------------------------------------------------------------
    The media was quick to show the things that we failed on, 
but I think when we looked at taking care of large numbers of 
people that were coming at us and trying to figure out how to 
handle the volume of the need, there were a lot of things that 
we drew upon in our planning. But I will admit that it was 
short of what we needed to accomplish simply because there was 
so much to do in so little time.
    If you will, I will quickly go through some of the lessons 
learned and some of the things that we achieved to kind of give 
you a breadth and depth of what we dealt with pre-Hurricane 
Katrina and Rita. We opened, with Department of Social Services 
and DHH staff, and supplied seven special needs shelters around 
the State. And we established triage lines, as of noon on 
Saturday, to assist special needs evacuees, to help them make 
decisions about leaving with their families, reporting to where 
the shelters were available, or whether they needed to be in a 
shelter or care at a hospital.
    We accepted 150 special needs evacuees, and I was told that 
was more like 200 in Baton Rouge from the Superdome prior to 
the storm. This had never been done before in any previous 
hurricanes. We assisted with equipment and staffing to the City 
of New Orleans to open a section of the Superdome for special 
needs evacuees.
    We cared for 1,200 special needs evacuees pre-storm, and 
then in Hurricane Rita, we moved special needs shelters. We had 
one side of our State that was hit, and all of the shelters 
were full. And then this other storm was coming at the other 
area of our State, so we started moving special needs shelters 
in Lake Charles and Lafayette to Shreveport and Monroe.
    We increased the capacity at the special needs shelters in 
Alexandria and Baton Route. Taking care of medically fragile 
people is no small feat, and being able to do that in a setting 
outside of a hospital is certainly no small feat.
    Special needs sheltering expanded on two university 
campuses. This has become a phrase now. This was something that 
came out of Hurricane Pam planning, the TMOSA. It is not a 
drink. It is a temporary medical operations and staging area. 
LSU's TMOSA at the Pete Maravich Assembly Center, we opened a 
surge facility for emergency rooms with the capacity for 800 
beds. And these are 800 emergency beds never done in the 
history of this country or anywhere else in the world. We 
triaged 40,000 evacuees at the facility.
    At Nicholls State and Thibodaux in Lafourche Parish, we 
opened another TMOSA, triaged over 20,000 evacuees. We expanded 
our capacity of special needs shelters around the State to care 
for over 2,000. We reopened special needs shelters and operated 
TMOSA in Lafayette to serve returning Rita and Katrina 
evacuees. We assisted with hospital surge by accepting hospital 
discharge patients.
    So our special needs shelters, which were our charge, 
became our ability to take care of the sick and those that had 
nowhere else to go, no family to go with. And if they got too 
sick, they were sent to hospitals, and hospitals would take 
care of them and send them back to us. We became the hospital 
surge, if you will.
    What did we learn? Well, certainly, communication is so 
critical. And even after all the things we have done since 
September 11 to have redundant systems, they still failed. Our 
ability to get visibility and know what was going on at any 
time--we would get reports, ``30 buses are coming out your 
way.'' People who have been on rooftops, in water, they have 
been picked up by search and rescue. We don't know their 
medical condition.
    Medical folks from hospitals had to be evacuated after the 
storm. It wasn't a result of the storm. It was actually a 
result of the flooding because the levees failed. And in that, 
being able to communicate on how to get those hospital patients 
out and helping them with their patients, when we have never 
evacuated those hospitals prior to this event in the last 100 
years.
    Here we were found with the idea that these very sick 
people who couldn't make the trip in the first place because 
hospitals--medical professionals chose to stay in place because 
the patients they were treating were at risk of traveling. They 
might lose their lives.
    Every day, as a medical professional, we make that decision 
when we treat patients. We put ourselves at risk of contracting 
an infection or a disease that puts our own lives at risk. And 
in this event, our hospitals decided to stay in place knowing 
the risks, very well knowing the risks, to protect the lives of 
the patients that couldn't make the trip out.
    And certainly, it was a lot more difficult to make the trip 
out, obviously, and we have learned our lessons that the sick 
and the infirm can't make it out if there is water, and you 
have to make it by boat, by helipad. Find a helipad, get on a 
helicopter, get them to the airport.
    Policy implications and gaps. I will tell you on the health 
forefront, we did some things that have never been done in this 
country. We moved 1,800 patients by airplane from the airport 
to hospitals around the country.
    There were some problems with making sure that their 
medical records were with them. There were problems in 
maintaining that medical home once you got them in the air and 
getting that information to the caregivers on the other side. 
There were some 12,000 total patients and caregivers that came 
out of hospitals in the affected areas.
    There are implications and gaps, as you heard over and over 
again, that we can improve. But I can tell you this. When we 
are looking at a pandemic possibly hitting this country, we 
better have our plans on how we deal at the regional level, how 
the State and the Federal Government can help us. But every 
community may be on its own if there is a major event where 
everyone is getting sick and dying.
    Building codes, we will come back and look at those. We are 
working with hospitals. We will be working with nursing homes 
to look at building codes. Transportation issues, I am not 
going to dwell on. We were set to take care of patients and 
save lives. That was our mission. Getting them to us was 
certainly an ordeal.
    Since I am running out of time, I will go to my final 
recommendations, if I could? Continuing HRSA grants would 
increase the level of funding. The HRSA grants are how we got 
equipment for hospitals and special needs shelters.
    Reform Stafford Act, include health care costs for 
catastrophic events and long-term response. The Stafford Act 
does not address health care.
    Funding for purchase and pre-staging of generators for 
special needs shelters. Mitigation funds for relocation of 
hospital generators.
    I have been asked, ``Have you asked for these things in the 
past?'' And the answer is a resounding yes. I did not get that 
funding or that support in the past. We have had a major 
catastrophe. I have yet to have any visibility on any funding 
available for generators, whether it is for special needs 
shelters or hospitals, and those patients are dependent on 
electricity and power for their lives.
    So even though we have asked and asked and asked, and we 
are now at a point where we have had the event, the major 
disaster and catastrophe that we all dreaded, we are still in a 
posture of trying to defend why don't we have these assets?
    And I will go ahead and summarize that as my remarks. Thank 
you very much.
    Chairman Collins. Thank you. Dr. Stephens.

 TESTIMONY OF KEVIN U. STEPHENS, M.D., J.D.,\1\ DIRECTOR, NEW 
                   ORLEANS HEALTH DEPARTMENT

    Dr. Stephens. Yes, good afternoon. My name is Dr. Kevin 
Stephens, and I am the Director for the New Orleans Health 
Department. Thank you for allowing us this opportunity to share 
our story with you.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Stephens appears in the Appendix 
on page 99.
---------------------------------------------------------------------------
    There are just two important issues I would like to address 
today. The first question is what was the role of the New 
Orleans Health Department with respect to special needs 
patients prior to Katrina? And two, what was the role of the 
New Orleans Health Department with respect to the special needs 
patient, hospital patient, nursing home patient after Katrina?
    As a little background information, the sole role for the 
New Orleans Health Department in the State and local plan was 
to open and operate the special needs shelter at the Superdome 
as a refuge of last resort. Our primary message was for special 
needs patients to evacuate and to evacuate early. And for those 
who could not, we opened the Superdome as a refuge of last 
resort for them as a safety net.
    To address the first question, we opened the Superdome as a 
special needs shelter first on Hurricanes Isadore and Ivan. And 
with the lessons learned, we then convened our partners and 
developed the plan we used in Katrina. We met regularly with 
the nursing homes, the hospitals, the other providers in the 
city to develop their own plan in terms of an executable plan 
for evacuation.
    Now it should be noted, very clearly, that the New Orleans 
Health Department does not have any administrative, we do not 
have any statutory, or we do not have any regulatory authority 
over any of these groups. In fact, we have no funding neither 
for none of these groups, and our role was purely merely 
advisory.
    Now to address the second question, the New Orleans Health 
Department role was to maintain the special needs shelter until 
appropriate relief was obtained at the Superdome. We moved the 
special needs patients from the Superdome to the sports arena, 
and when the DMAT team came and assumed the care of the special 
needs patients, then at that point, the health department went 
to the recovery process and to where we actually started to 
open up shelters and clinics for people who were remaining for 
vaccinations and so forth.
    In conclusion, the New Orleans Health Department role was 
to open the special needs shelters as a shelter of last resort. 
We opened and operated the special needs shelter. We had 
volunteers and partners, mainly the whole number of community 
partners, including Catholic Charities and so forth, that 
donated dry goods, water, and other food to make this a safe 
place until outside help could come.
    And my final remarks, I think there are couple of things 
that will be very helpful for us. One, I think it would be very 
helpful to adequately fund the health department. We have zero 
dollars in our budget for special needs, for evacuation, for 
sheltering, or for planning. And so, all of our work has been 
done primarily gratuitously by our providers and with our own 
network.
    And two, I think it is very important that we, in terms of 
hospitals and nursing homes and the special needs patient 
population, harden the facilities. It is very difficult to 
transport out 2,500 patients in threat of a hurricane. And we 
know from Hurricanes Ivan and Isadore that oftentimes the 
hurricane will not come. And so, we have to have funding to 
evacuate these facilities even in the threat.
    And the problem is we were told FEMA would not pay unless 
the hurricane hit. And so, if the hurricane does not hit, like 
in Isadore and Ivan, there is no reimbursement. And one nursing 
home provider personally told me, he showed me copies of a 
receipt, it cost him $100,000 to evacuate his nursing home. And 
for him, that was very cost prohibitive because if you have to 
do this two or three times in a season, it can be very 
problematic.
    And three, I think it is very important that we harden the 
medical facilities. Prior to Katrina, we did know that a lot of 
the medical facilities had their generators in the basement and 
on the first floor and that if flooding would perhaps happen, 
they would be out of power.
    However, we have made request after request to get them and 
others to help fund moving the generators and the switches to a 
higher level to where they would be operational. And I think at 
this point, it is imperative that we harden the facilities so 
that they can withstand a hurricane to a Category 5 so that 
they will not lose power and they can provide some services not 
only before and during a disaster, but afterwards. It is very 
important to have those facilities open and able to take care 
of patients.
    And in fact, in the City of New Orleans today, we have two 
hospitals that are open--namely, Touro and Children's 
Hospitals--and the other hospitals have not opened, which has 
created a significant problem in terms of our health care 
delivery system because we just don't have the capacity without 
the beds. So I think it is very important that we get Federal 
funding to make sure that we can strengthen and harden our 
medical facilities, not only for the special needs, for the 
hospital patients.
    And four, I think it is very important that we use a 
regional approach because we just don't have the resources 
locally and even in the region.
    And one last comment, an example of a system that is great 
and that is operational is the system we have in place 
currently. Currently, we have a daily dashboard. And if you 
don't have a copy, I would be happy to forward you one. And on 
our daily dashboard, we have every hospital in our metropolitan 
area. We look at their beds, the ICU beds, the ER beds, and the 
capacity.
    And I think that in the future, in light of a disaster like 
this, that we could have a regional, even a national database--
and this is done all electronically. You can go online, even 
currently as we speak, and you can get the status of health 
care in terms of the available beds, available ER beds, the 
time you have to wait, and so forth for every hospital in the 
metropolitan area.
    So in a disaster like this, we could have a national system 
to when we have to evacuate, we could use the technology to 
help us efficiently determine where we could send patients and 
what capacity, who has the capacity, how we can get them there, 
so that we can take care of those who can't take care of 
themselves.
    Our government has historically taken care of those who 
couldn't take care of themselves, and we feel this is a very 
important responsibility, and we are willing to partner with 
the State and the Federal Government to make sure that we 
ensure the safety and well-being especially of those who can't 
take care of themselves.
    Thank you very much.
    Chairman Collins. Thank you. Mr. Donchess.

    TESTIMONY OF JOSEPH A. DONCHESS,\1\ EXECUTIVE DIRECTOR, 
               LOUISIANA NURSING HOME ASSOCIATION

    Mr. Donchess. Thank you, Madam Chairman, Members of the 
Committee. And Senator Akaka, I am a graduate of Chaminade 
University, and I have very fond memories of my 4 years in 
Hawaii.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Donchess appears in the Appendix 
on page 104.
---------------------------------------------------------------------------
    Louisiana Nursing Home Association (LNHA) is one of two 
professional associations that has a desk at the Emergency 
Operations Center in Baton Rouge. The association has been an 
emergency operations participant since after Hurricane Andrew 
struck in 1992.
    On Saturday, August 27, 2005, at 6:30 a.m., LNHA began 
maintaining its desk on a 24-hour basis. We maintained that 
status for nearly 3 weeks, and then came Hurricane Rita, and we 
did it again.
    For Hurricane Katrina, 21 nursing homes evacuated pre-storm 
and 36 nursing homes evacuated after the storm. Approximately 
5,500 to 6,000 patients were evacuated from nursing homes pre 
and post storm. LNHA posted 5,300 names of nursing home 
patients on our Web site. A special Web page was created to 
list patients' names and their host facilities. This allowed 
family members to locate their loved ones and contact them.
    LNHA staff successfully located the list of out-of-state 
evacuees from the Global Patient Movement Resource Center. This 
list had more than 4,000 names on it, and LNHA staff were 
personally responsible for locating literally hundreds of 
displaced elderly who were flown out of State after Hurricane 
Katrina.
    There are still 21 nursing homes in Orleans, Jefferson, St. 
Bernard, and Plaquemines Parishes that are closed. Many others 
are operating fewer beds because of their inability to find 
health care employees to staff all beds.
    Katrina was an unusual, remarkable storm. On Friday, August 
26, the storm's projected path had it moving toward the 
panhandle of Florida. It was not until late Friday night that a 
projected path change was announced that the hurricane was 
coming to Louisiana.
    By Saturday morning, health care facilities had less than 
48 hours notice of the impending danger. This short period of 
time to react is rare. Health care facilities typically have at 
least 72 hours notice of an oncoming storm. Was this a reason 
that not more facilities evacuated by Sunday? Yes, I think so.
    Also, many people remembered the transportation nightmare 
of Hurricane Ivan the year before. The transportation of 
elderly, fragile patients on buses for 9 to 12 hours to 
traverse the 80 miles to Baton Rouge is an ordeal no one wishes 
to repeat.
    Issues immediately following Katrina. For the first 2 days, 
there was an inability to communicate with decisionmakers in 
the Emergency Operations Center. Our E-Team requests were not 
acknowledged for many hours.
    LNHA staff set up our own rescue missions. Colonial Oaks 
Nursing Home, which was told on Sunday that its bus 
transportation contractor had already released its drivers to 
evacuate, had no power after the storm, and flood waters were 
threatening to encompass it. LNHA contacted State Senator Cleo 
Fields, who volunteered to take leadership buses to help with 
the evacuation of patients at Colonial Oaks. Late Monday and 
early Tuesday, patients were loaded on the buses and 
transported to safety.
    St. Margaret's Nursing Home evacuated on Sunday to Varnado 
High School in a town which is nearer to where the eye of the 
hurricane passed. The area lost power and communication.
    We were fortunate to get intermittent contact with them 
through the Washington Parish Sheriff's Office. With the help 
of State Senator Sherri Cheek in Shreveport, we located private 
bus companies which sent buses to Varnado late Tuesday night 
and transported the patients to host nursing homes in North 
Louisiana.
    Bethany Nursing Home in New Orleans was surrounded by flood 
waters, but the patients were safely housed on the second 
floor. On Tuesday, LNHA arranged for two buses to be positioned 
a few blocks away on high ground. Two high-water vehicles had 
been requested to drive through the flood waters and extract 
the patients.
    As the buses were in place waiting, the two high-water 
vehicles were diverted from our mission by the National Guard, 
we were told. Shortly thereafter, the two buses were 
commandeered by FEMA, we were told. The surviving patients at 
Bethany did not get out until Friday, 3 days later.
    Gunfire by marauding criminals made rescue missions 
dangerous, and some attempts to rescue elderly in nursing homes 
were aborted because of the gunfire. Such was the case with 
Maison Hospitaliere. These are but four illustrations.
    Lack of communications with certain parishes was a critical 
issue. Washington, St. Tammany, St. Bernard, Plaquemines, 
Orleans, and, to some extent, Jefferson are parishes that had 
very little communication capabilities. Cell towers were down. 
Land lines were not operating. Ham radios were the only 
reliable sources of communication.
    Nursing homes and hospitals were not a priority during the 
rescue process. For the first 2 days, LNHA was on its own to 
improvise and find ways to rescue the elderly in nursing homes. 
We helped members and nonmembers alike. At first, LNHA could 
submit E-Team missions, but by the fourth day our E-Team 
missions were denied because we were not a governmental agency. 
Our hands became tied.
    Now, months later, our manpower is scattered to the winds. 
Many are out of State, and some may never return. Others have 
been hired by FEMA or clean-up crews or other businesses at 
higher wages. Today, nursing homes state-wide can hire 4,200 
people, including 2,300 certified nursing assistants.
    Our Medicaid payment is not adequate. Our Medicaid agency, 
the Department of Health and Hospitals, refuses to pay nursing 
facilities in accordance with its State plan, approved by the 
Federal Government. Facilities are underpaid approximately $3 
per patient day, which amounts to $23 million for our program.
    And cuts by DHH of 10 percent will further hurt nursing 
homes' abilities to provide adequate care. This cut will take 
effect in a few days.
    Overtime and transportation costs incurred from the storm 
have not been reimbursed by FEMA for private, for-profit 
facilities. LNHA is currently working with Louisiana's 
congressional delegation to change the Stafford Act to allow 
payment for Medicare and Medicaid patients in for-profit 
nursing homes who were affected by disasters.
    Solutions. Passage of the Reconciliation Bill by the House 
of Representatives in the next few days is a helpful start to 
getting health care in the Gulf Coast region back on its feet. 
It provides 100 percent Federal funding of Medicaid for most of 
this fiscal year.
    Nursing facilities need staff flexibility. The use of 
uncertified aides for 1 year should be allowed until people can 
be attracted to South Louisiana in this work area. We need an 
expansion of visas for more foreign nurses, registered nurses 
and licensed practical nurses. While Congress can and should 
get tough on illegal immigration, it should recognize the need 
of health care providers in Louisiana and elsewhere and expand 
visas for trained individuals who can offer a valuable needed 
service to the many fragile elderly living in nursing homes.
    LNHA has proposed State legislation that would empower and 
direct the State Office of Homeland Security and Emergency 
Preparedness to order the evacuation of health care facilities 
and provide wherewithal for providers to do it.
    The State of Texas learned from the experiences and reacted 
quickly to an oncoming Hurricane Rita. And Louisiana reacted in 
a timely fashion for Hurricane Rita. Nursing home patients were 
moved to host sites, including many uncomfortable gymnasiums 
because all nursing homes were filled with Katrina evacuees.
    The State agency, under our proposal, would provide the 
means of transportation, the host sites, and the manpower to 
effectuate a timely and safe evacuation. If a facility fails to 
comply with a timely called and arranged evacuation order, it 
would be subject to regulatory sanction. Facilities would be 
given immunity from lawsuits for acting responsibly in 
accordance with the evacuation order, and costs incurred by a 
facility would be reimbursed in a timely fashion by the State 
Medicaid agency.
    Finally, the vast majority of our nursing facilities 
weathered Hurricane Katrina. At 10 a.m. on Monday, August 29, 
after the storm passed, patients were safely sheltered. Shortly 
thereafter, the breaks in the levee system created an 
unprecedented disaster with 80 percent of the city inundated 
with flood waters.
    The floods and an unexpected lawless segment of those 
trapped created an untenable situation. Disaster plans became 
meaningless at that time.
    In closing, let me say our nursing home population is a 
fragile one, and their safety must be a priority. Thank you.
    Chairman Collins. Thank you, Mr. Donchess.
    I am going to start my questioning with your last 
statement, where you said that nursing home populations are 
fragile ones, and they must be a priority. You said earlier 
that they were not a priority. To me, that is just 
inconceivable. Why weren't nursing home populations and 
patients in hospitals more of a priority?
    Mr. Donchess. I don't have a clear answer for you, Madam 
Chairman. I will say this, that we worked with people in the 
operations center. They all seemed concerned. But when it came 
time to act, the action wasn't there.
    As I said earlier, we actually had to do our own missions, 
create our own missions, contact outside sources to put these 
together. And I am hoping that with a proposal of State 
legislation, that the State legislature will see the need to 
make nursing homes and hospitals a greater priority and do 
something legislatively about it.
    Chairman Collins. Now you personally sat at the Louisiana 
Emergency Operations Center during Katrina. Is that correct?
    Mr. Donchess. Yes.
    Chairman Collins. So you are familiar with the State's E-
Team process, whereby missions, including rescue missions, are 
assigned. Correct?
    Mr. Donchess. Yes, ma'am.
    Chairman Collins. And it is my understanding that while you 
were at the EOC, you tried to submit E-Team requests on behalf 
of specific nursing homes that were encountering difficulties. 
Is that correct?
    Mr. Donchess. Yes, ma'am. In fact, on the software program, 
the Louisiana Nursing Home Association is listed as one of the 
participants. For the first 2 days, we were allowed to submit 
missions, even though it took a long time to get word as to 
whether they were missions in activity or whether they were 
still not a go yet.
    By the fourth day, we were told that we are not a State or 
city agency and, therefore, we can't submit the E-Team requests 
at all. We would have to take our requests to Dr. Guidry and 
get him to initial them, and then it was a go after that.
    But this was, many times, Dr. Guidry had 100 different 
things to do at one time. And oftentimes, it was difficult 
finding him and getting these things approved. So what we need 
to do, if we are going to be a participant at the Emergency 
Operations Center--and I might add that State legislation says 
that the Office of Emergency Preparedness can act with public 
and private agencies. That is right in the law. And therefore, 
I don't see why, if we are going to be called upon to assist, 
why we can't be given the authority to offer these E-Team 
missions.
    Chairman Collins. Could you give us some examples of the 
kinds of mission requests that you submitted that were not 
carried out?
    Mr. Donchess. Well, in the beginning, for instance, with 
Maison Hospitaliere, we asked for buses, and we didn't get any 
word back right away as to whether the buses were rolling or 
not.
    I know the first night also, Colonial Oaks said, ``We need 
to move out.'' I think we put in an E-Team request for them, 
heard nothing back until the next day. By that time, Senator 
Fields had his buses down at the nursing home and were 
extracting those patients. They actually left, I believe, by 
early Tuesday morning.
    There were a number of situations that it became very 
evident that--I will give you another example. At one point in 
time, we were told the buses were rolling to Maison 
Hospitaliere. I went back about an hour later, and I asked 
where the buses were at this point in time, and I was told, 
``Well, the buses haven't left yet.''
    So it is just a breakdown in communications. One of the 
things I didn't add in my testimony that I have in my formal 
documents, and I am certainly not an expert at this, but I 
think if you create small special operations teams that could 
be given an assignment. And they then go in and take care of 
that assignment until it is done, that this might be a way to 
help nursing homes and other special needs types of people to 
get out.
    The Bethany home was a very good example, where we had 
buses there 3 days earlier. But because of some SNAFU along the 
way, they were there for 3 more days, and I think 6 or 7 more 
patients died during that point in time because they didn't 
have the air conditioning and other needed equipment to keep 
those patients alive.
    Chairman Collins. That is just so tragic and so 
unacceptable. Here you are, sitting at the Emergency Operations 
Center, a recognized participant in the process, funneling 
requests from nursing homes. Some of them pretty desperate 
requests for evacuation help, for fuel, for generators, I am 
told, other urgent needs. And you can't mobilize the resources, 
even though you are part of the process. Is that an accurate 
picture of what happened?
    Mr. Donchess. That is an accurate picture. And when days go 
by, and you hear people on the other end of a phone during 
those few times we could get through, and you hear their voices 
cracking and knowing that they are at their very wit's end 
after 2 days go by, then 3 days go by. I wanted to do whatever 
I could to help, and I knew that we had to get these missions 
going in order to rescue those people.
    Chairman Collins. Dr. Guidry, it is very troubling to hear 
what was just described. I am also very troubled by an e-mail 
that is Exhibit 13 \1\ in the book, the exhibit book before 
you. This is an e-mail from a Federal official from the 
regional emergency coordination program office at the Federal 
Department of Health and Human Services, and what she reports 
is as follows.
---------------------------------------------------------------------------
    \1\ Exhibit 13 appears in the Appendix on page 167.
---------------------------------------------------------------------------
    ``I spoke with Dr. Roseanne Pratts, who is the Louisiana 
Department of Health Emergency Preparedness Director, at 2 
p.m.'' This is on Saturday, August 27. ``And inquired if 
Federal HHS assistance was needed for patient movement or 
evacuation or anything else. She responded, no, that they do 
not require anything at this time, and they would be in touch 
if and when they needed assistance.''
    Can you explain to me why the State turned down an offer of 
Federal assistance?
    Dr. Guidry. Yes. If you look at the time of this e-mail, we 
were opening up special needs shelters. We had triage phones. 
We had requests coming in. So we were aware of what the needs 
were.
    HHS's offer--HHS is not in the transportation business and, 
to this day, 5 months later, has not helped us with the things 
that they offered. So when they asked us if we needed these 
things, there were no requests at that time for these things, 
and as it states, we did not need these things at that point in 
time.
    So, at that point in time, the offer was for something that 
wasn't being asked for.
    Chairman Collins. As the situation deteriorated in the days 
to come--this is 2 days before landfall--did you go back to HHS 
and request assistance?
    Dr. Guidry. HHS showed up early in this event. They were 
there on that Sunday before the storm hit, and they were 
actually the ones helping us fill out request forms, what are 
called action request forms. And so, they were telling us what 
is available to us, what we can order. So they were on the 
ground with us.
    HHS brought the Public Health Service and helped us provide 
health care. Everyone said in this event there would be a 
second wave of infections because of people being out in the 
water and the weather, and that did not occur because we were 
able to give vaccinations and take care of people once they got 
to where we could take care of them. So we did use their 
resources, and their resources did not include transportation.
    Chairman Collins. Well, Dr. Guidry, I have to say to you 
that in light of the predictions for this storm, in view of the 
findings from Hurricane Pam, I find it inconceivable that an 
offer of assistance from the Federal Department of Health and 
Human Services 2 days before landfall--really 1\1/2\ days 
before landfall--specifically for patient movement, evacuation, 
or anything else, was turned down.
    And I must say that I wonder if the dire straits that we 
heard described this morning would have been as bad as they 
were if this offer had been accepted?
    Dr. Guidry. I can say equivocally that I would have made 
the same decision. That what they had to offer I was quite 
aware of because I have been doing this for 10 days. And when 
HHS offered to help, I knew when I needed their help, and I 
knew what they could offer, and I knew how to get that.
    I spoke to several people, Stu Simonson, at HHS. I spoke to 
a number of people at HHS, boots on the ground. And this call, 
at that point in time, was from somebody in Washington that did 
not know what we were going through there, offering something 
that they couldn't deliver.
    I was told, when I asked for NDMS to move patients out, and 
this was once the flooding occurred, that had never been done 
in this country and that, good luck, maybe I could get them 
there and maybe I could get patients moved. But we still asked. 
We put in requests before things occurred. We saved as many 
lives as we could.
    The offer that was made on that day and put in this e-mail 
shows someone offering something that they weren't going to 
deliver because I am aware of the system to the Nth degree 
because I have lived this with this fear for a long time.
    Chairman Collins. Senator Lieberman.
    Senator Lieberman. Thanks. I must say that I noticed the e-
mail exhibit that Senator Collins referred to, and I must say 
that I was pleased that somebody at the Federal Government 
level had, on their own, exercised that kind of initiative.
    HHS has, under the National Response Plan, the 
responsibility for patient evacuation. The National Response 
Plan was not activated by that time. So Erin Fowler, I presume 
it is ``she''--on her own took some initiative, and I admire 
it. I regret that, for some reason, you thought that she wasn't 
able to carry through. But I am going to come back with another 
question in a minute.
    Dr. Stephens, I want to go back to the line of questioning 
I had with Colonel Ebbert because in so many ways, as you look 
back, there are points when you wished that something had 
happened that could have prevented the suffering of the people 
who couldn't leave New Orleans on their own.
    Now, looking back, here you are, trying to negotiate these 
memoranda of understanding with Amtrak, with the regional 
transit authority, and with the school authorities for ways to 
get people out. Just briefly, tell me what got you started to 
do that in 2004?
    Dr. Stephens. Well, quite candidly, our previous chief of 
Office of Emergency Preparedness had retired, and so we knew 
that this hurricane season was coming up, and the Mayor had to 
name his successor. And so, in that critical time, nothing was 
going on.
    Senator Lieberman. Yes.
    Dr. Stephens. And so, I took the initiative myself.
    Senator Lieberman. You just did it on your own?
    Dr. Stephens. Right.
    Senator Lieberman. Knowing that there was no preparedness 
for that kind of evacuation?
    Dr. Stephens. And so, what I did, candidly, is I called the 
riverboats. I met with the Delta Queen, and we actually went on 
the boat. And my staff actually rode up the river on the ride, 
on a little excursion, to see how the water would be and if it 
is safe for patients and people.
    Senator Lieberman. This was back in 2004?
    Dr. Stephens. At the end of 2004 and the beginning of 2005.
    Senator Lieberman. And then how about the memoranda that 
you were negotiating with those other people for transportation 
evacuation assistance?
    Dr. Stephens. Well, again, in fact, most of the MOUs were 
typed by me personally.
    Senator Lieberman. Yes, amazing.
    Dr. Stephens. Because I didn't have the staff.
    Senator Lieberman. Right.
    Dr. Stephens. And I called Amtrak and said, ``Look, what 
can you do?'' And so, I met with Larry Baird, and Josie came 
down, and a train came down. We actually went on the train to 
look at the trains to see----
    Senator Lieberman. Sometime earlier in 2005?
    Dr. Stephens. Yes.
    Senator Lieberman. Did other city officials, either in the 
Department or the Mayor, know that you were doing this?
    Dr. Stephens. We were working and negotiating with the 
Office of Emergency Preparedness.
    Senator Lieberman. Right.
    Dr. Stephens. Because it is a very complex problem because 
you have to look at egress, where do you go, how do you get 
out?
    Senator Lieberman. Yes.
    Dr. Stephens. You have to look at the trains, how many 
cars.
    Senator Lieberman. So you involved the city emergency 
preparedness office as this went along?
    Dr. Stephens. Yes, we did.
    Senator Lieberman. So just, because time is running short, 
in a couple of words, why didn't these memoranda come to 
completion? Because if they had, a lot of the horrible scenes 
we saw from New Orleans after the storm would have been avoided 
because people would have been evacuated.
    Dr. Stephens. Well, I think there are two components to 
that. The first one is it was just a matter of timing. I mean, 
obviously, if we knew that this was the big one, then we all 
would have speeded up our deliberations.
    And two, though, it is very complicated. When we looked at 
Amtrak, for instance, Amtrak could not go to Baton Rouge. 
Amtrak could only go to Hammond because they didn't own the 
tracks. Union Carbide owned the tracks to Baton Rouge.
    And so, when you look at the levees and the locks, Amtrak 
couldn't get out if the locks were opened. The train couldn't 
go because of the--and so, you have a plethora of 
complications. And even when you got to Hammond, where do 
people go? How do they get--Hammond does not have a public 
transit system.
    Senator Lieberman. All right. I get the picture, 
unfortunately. Obviously, again, based on the Pam exercise and 
all the warnings, you look back, I am sure, and you wished that 
had been completed. And I admire you for starting the process 
really on your own.
    Dr. Guidry, let me ask this question. The Department that 
you are with, Health and Hospitals, licenses hospitals in the 
State of Louisiana. The regulations, as we have looked at them, 
require the preparation of emergency preparedness plans that 
must include identification of hazards and natural disaster and 
emergency procedures for evacuation of the hospitals, including 
the designation of facilities to receive the evacuated 
patients.
    From what we can see as we look back, notwithstanding all 
of that and the warnings of Hurricane Pam and those 
regulations, hospitals in Southeast Louisiana seem not to have 
been prepared or not to have followed what the regulations 
required. And most particularly, I know somebody mentioned this 
before, generators and fuel supplies were not above flood 
level. And there were not adequate supplies or, in a lot of 
cases, an overall evacuation plan.
    Simple question. Why not?
    Dr. Guidry. I asked the same questions. I went back and 
looked at how did we get to this point in time? It is not a 
requirement for licensure to have generators at a certain 
level, at a certain place. It is not a requirement for 
licensure that you show proof that your plan is operational.
    We are at this point, we passed legislation this past 
special session to say we are going to go back and look at 
building codes and plans. But it was not a requirement prior to 
this event that they would turn in plans defining what their 
evacuation plans were.
    When I had discussions with a number of these hospitals in 
this area over the many years, the question was, ``How are you 
going to evacuate?'' And their response was always, ``We do not 
plan to evacuate. Our evacuation plan will be to get those 
people out that can travel, elective surgeries. But we will 
remain here with the people that are not able to get out and 
the people that are going to need our care so that we can be 
here after the event.''
    Senator Lieberman. Did that make sense, do you think? And 
now, in the aftermath of Katrina, does it make sense?
    Dr. Guidry. I can tell you that next hurricane season, 
there are going to be a lot more people leaving and the plan is 
going to change drastically. Those that do stay will be the 
hospitals that have the capability of hardening their 
structures and putting their generators higher because it does 
not make sense to stay in a bowl, if you will.
    Senator Lieberman. Right. And I gather from the reference 
you made to the State legislative action this year that it is--
well, you tell me whether it is your intention that these 
plans, evacuation plans that have to be submitted as part of 
the licensure for the hospitals, are going to be reviewed as to 
adequacy?
    Dr. Guidry. It is our plan to review that with all of the 
participants and people sitting around the table, saying, ``How 
can we make this work?'' It is also our plan to hire a 
contractor that has expertise in this to help us develop this 
plan, such as the RAND Corporation, to help us with that.
    Senator Lieberman. OK. Madam Chairman, if I can quickly ask 
Mr. Donchess this last question?
    As you said in your opening statement, during Katrina, 21 
nursing homes evacuated before the storm and 36 evacuated after 
the storm. It looks to us like many of the homes did not follow 
their own emergency plans, which require evacuation in a 
catastrophic situation.
    And surely, by that time, there were Category 4, Category 5 
hurricane warnings to everybody, as we have heard again today. 
Why weren't those emergency evacuation plans followed? In other 
words, what is the point of requiring the nursing homes to 
evacuate in case of an oncoming catastrophe if they don't do 
it?
    Mr. Donchess. I think there are a number of items. First, I 
think the professional staff used their professional judgment 
to determine what would be more harmful to the patients because 
these are very fragile. As we saw in Hurricane Ivan, there were 
deaths of patients on buses because it took so long to evacuate 
and to get to their host sites.
    Also the fact that the notice this time around was so 
short. Many of our nursing homes were not advised until 
Saturday morning that this was a serious storm, that it was 
heading for the New Orleans area. Prior to that, I think 
everybody went to bed on Friday night thinking that it was 
still heading for the Florida panhandle.
    It is a very long process in loading buses with nursing 
home patients. You literally have to put them in sheets and 
carry them up steps of the bus and then get them really 
situated in seats on the buses, and then you do it all over 
again with the next patient. So it is a very long process.
    And I think many of the nursing homes, those that may have 
already been told that their transportation was not available, 
either because the buses weren't there or the drivers had left, 
thought long and hard about whether it was going to be safer to 
keep the patients sheltered in place or to move them.
    Senator Lieberman. I don't minimize the difficulty of the 
decision about moving the frail elderly. But obviously, on the 
other side of it--and I am not capable of reaching a judgment 
as to guilt--a number of patients in nursing homes died. So 
that the risk associated with the movement of a frail elderly 
from a nursing home obviously has to be balanced against the 
very risk to their lives, which were taken in some cases.
    And I know that there is a State Attorney General's 
investigation of possible criminal violations in that regard. 
Do you want to offer any response to that?
    Mr. Donchess. Well, hindsight is a beauty, and I am hopeful 
that next time around nursing homes will heed the warnings and 
that we will have 100 percent evacuation.
    Senator Lieberman. Well, that is the point, particularly 
when it is up to Category 4 or Category 5. Then you know 
something really big is coming.
    Mr. Donchess. Yes, sir. And I could tell you that as time 
went on and I contacted nursing homes prior to the storm 
hitting and was conveying to them what I had just heard from 
National Weather Service people like this is the making of the 
perfect storm, I could tell that they were getting very 
concerned. But by then, it was Sunday, and the opportunity to 
move had been lost.
    Senator Lieberman. A lot of lost opportunities. That is the 
tragedy. And hopefully, at all levels, as the hurricane season 
begins again in June, not only the State and local governments 
and private sector, but the Federal Government are going to be 
a lot more ready to respond before landfall rather than weeping 
and being upset afterward. Thank you.
    Chairman Collins. Thank you. Senator Akaka.
    Senator Akaka. Thank you very much, Madam Chairman.
    Mr. Donchess, welcome to the Committee. Let me just tell 
you that I am trying to understand who is responsible for 
taking care of those people in society that are least able to 
take care of themselves, which includes nursing home patients. 
And I would like to clarify an issue that was raised with 
Colonel Ebbert.
    Is it true that the State and city required nursing homes 
to develop evacuation plans and that the State and city 
officials reviewed those plans?
    Mr. Donchess. Yes, sir. That is correct. It was right after 
Hurricane Andrew that our Emergency Preparedness Committee at 
LNHA met and actually developed a model emergency preparedness 
plan. That plan, with a few changes, was adopted by the 
Louisiana Department of Health and Hospitals.
    And the very front page calls for each of those plans to be 
reviewed by the local office of emergency preparedness. And so, 
our member facilities, I know, have been doing that since 1993.
    Senator Akaka. I assume that there were only a limited 
number of transportation companies that nursing homes could 
contract with in an event of an evacuation. Who is responsible 
for ensuring that companies that have contracts with nursing 
homes are capable of meeting transportation requirements in the 
event of an emergency?
    Mr. Donchess. Well, initially, I would say the nursing 
facility that contracts with the company should get some 
assurances from the company that it is capable of providing the 
buses that are required to get people out.
    One of the things I was told after the fact is that some of 
these companies had multiple contracts with different nursing 
homes and may not have had enough buses. I don't know if that 
is true or not, but that is something that I had heard.
    Senator Akaka. You said that disaster plans became 
meaningless once the city flooded. Everyone knew New Orleans 
could flood if a Category 3 hurricane hit. Shouldn't disaster 
plans for the worst expected disaster have been made?
    Mr. Donchess. Yes, sir. And hopefully, they will be made 
for the next time around. I know our committee is going to be 
meeting on February 23 and be going over some critical issues, 
such as having wrist or arm bands for patients with some vital 
information on them.
    I had never fathomed that an elderly nursing home patient 
would some way be moved away from the rest of the staff or 
other patients of nursing homes, but yet we saw on many 
occasions where patients were, actually. Because in one 
occasion, a bus was actually taken over by a marauding band of 
criminals in New Orleans, and some of those patients got 
removed from where they were supposed to be going. Some of 
those patients ended up on C-130s, flying to points unknown 
that we then had to find after the fact.
    But absolutely, we are going to be looking at many 
different issues such as arm bands, wrist bands, notifying the 
local OEP at the host sites so if they have capability of 
assisting with offloading of patients, that they will be ready 
for that as well. So there are a number of issues that we have 
outlined that we want to discuss at that meeting.
    Senator Akaka. Dr. Guidry, I understand that the Louisiana 
State University system is supposed to function as the State 
agency responsible for acute care for all hospitals and nursing 
homes in an emergency situation under Emergency Support 
Function No. 8 of the State Emergency Operations Plan, but that 
LSU does not assume this role in practice.
    Why is it that LSU and the Department of Health and 
Hospitals signed off on an Emergency Operations Plan when they 
knew it was not operational?
    Dr. Guidry. I am going to answer this, since I am under 
oath, as honest as I can, and that is we just signed off on 
what DHH was responsible for, and that is what we tried to 
deliver. LSU signed off.
    And that part which they signed off on was taking care of 
the indigent and the uninsured and taking care of those 
patients that would normally go in the private sector. We have, 
since that was signed--and we will now have to go back and 
revisit this--worked through the HRSA grant to build networks 
between hospitals so that in each region of the State, there is 
a designated regional hospital. And in some regions, that is a 
LSU hospital, and in some regions, it is a private hospital.
    The LSU system has been losing its funding, if you will, 
and its ability to provide the care for all the indigent, and 
the private hospitals have been absorbing that. So the 
Department of Health and Hospitals, myself in the role, has 
worked with all the hospitals to make sure we can take care of 
patients. So LSU has worked to take care of the LSU system as 
much as they can, and I have worked with the private hospitals 
and the hospital association to take care of the other 
hospitals, all working together in a system we have set up 
through HRSA grant.
    Senator Akaka. Madam Chairman, may I do one more question?
    Chairman Collins. Certainly.
    Senator Akaka. Dr. Stephens, in the Hurricane Pam exercise, 
the city assumed that all major hospitals would cease to 
function if a Category 3 hurricane hit New Orleans. However, 
according to individuals interviewed by the Committee, it is 
New Orleans policy to direct patients who need constant care to 
go to hospitals. Isn't it shortsighted to have patients being 
directed to hospitals, which you anticipate would not be 
functioning during such a disaster?
    Dr. Stephens. Well, I think there are a couple of issues 
with that. The first thing is the level of category of a 
hurricane and whether or not the hospital will be open and 
operational. And as you know, from Category 1 to 5, in the 
Category 4 or 5, like in Katrina, obviously the hospitals are 
not the place of diversion because they themselves should be 
evacuated.
    But in the Category 1 or 2, it is certainly feasible to 
evacuate people from wherever they need to go to a hospital for 
some type of sheltering. And indeed, with the State plan, they 
have two components, hospital sheltering and special needs 
sheltering, and they have specific criteria for each. In that 
event, I think it is appropriate to do that.
    And one of the things I mentioned earlier, I think it is 
certainly wise for us all to look at the hardening of our 
hospitals' infrastructure. We can build structures to withstand 
Category 4 and 5 hurricanes, and I think we need to invest the 
resources to harden the hospitals, not only pre and during the 
hurricane, but even more importantly, after the hurricane hit.
    Because then, when you have injuries, then you have no 
place to bring people to get emergent and imminent care. But if 
the hospitals were hardened, that would be a first line of 
defense that we could get to them, and we could start to take 
care of people who may have been injured throughout the 
process.
    Senator Akaka. Thank you. I thank the panel.
    Chairman Collins. Thank you.
    Dr. Stephens, before I dismiss this panel, I want to 
apologize for not having time to question you. Maybe you are 
happy about that. [Laughter.]
    But had I been able to, the line of questioning was going 
to be identical to that pursued by my colleague Senator 
Lieberman about the memoranda of understanding.
    And I just want to commend you for stepping into the vacuum 
and trying to put together agreements that would have improved 
the response. And I think you deserve some public credit for 
that, and I hope you will continue to work on that and make 
sure that they get finalized before hurricane season strikes 
this year.
    I do want to thank all of our witnesses today for your 
cooperation and your testimony. The hearing record will remain 
open for 15 days for additional information.
    Senator Lieberman.
    Senator Lieberman. Thanks, Madam Chairman.
    I don't really have anything substantial to add. I just 
wanted to say that Dr. Stephens' admirable work must be 
explained by the fact that not only is he a medical doctor, but 
he is a doctor of jurisprudence.
    Chairman Collins. I thought it was despite that. 
[Laughter.]
    Senator Lieberman. And then, finally, Dr. Guidry, are you 
related to Ron Guidry?
    Dr. Guidry. I must be, but I don't know.
    Senator Lieberman. Don't try to curry favor with the 
Committee. [Laughter.]
    Thank you. Thank you, Madam Chairman.
    Chairman Collins. Thank you for your testimony. This 
hearing is now adjourned.
    [Whereupon, at 1 p.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6752.001

[GRAPHIC] [TIFF OMITTED] T6752.002

[GRAPHIC] [TIFF OMITTED] T6752.003

[GRAPHIC] [TIFF OMITTED] T6752.004

[GRAPHIC] [TIFF OMITTED] T6752.005

[GRAPHIC] [TIFF OMITTED] T6752.006

[GRAPHIC] [TIFF OMITTED] T6752.007

[GRAPHIC] [TIFF OMITTED] T6752.008

[GRAPHIC] [TIFF OMITTED] T6752.009

[GRAPHIC] [TIFF OMITTED] T6752.010

[GRAPHIC] [TIFF OMITTED] T6752.011

[GRAPHIC] [TIFF OMITTED] T6752.012

[GRAPHIC] [TIFF OMITTED] T6752.013

[GRAPHIC] [TIFF OMITTED] T6752.014

[GRAPHIC] [TIFF OMITTED] T6752.015

[GRAPHIC] [TIFF OMITTED] T6752.016

[GRAPHIC] [TIFF OMITTED] T6752.017

[GRAPHIC] [TIFF OMITTED] T6752.018

[GRAPHIC] [TIFF OMITTED] T6752.019

[GRAPHIC] [TIFF OMITTED] T6752.020

[GRAPHIC] [TIFF OMITTED] T6752.021

[GRAPHIC] [TIFF OMITTED] T6752.022

[GRAPHIC] [TIFF OMITTED] T6752.023

[GRAPHIC] [TIFF OMITTED] T6752.024

[GRAPHIC] [TIFF OMITTED] T6752.025

[GRAPHIC] [TIFF OMITTED] T6752.026

[GRAPHIC] [TIFF OMITTED] T6752.027

[GRAPHIC] [TIFF OMITTED] T6752.028

[GRAPHIC] [TIFF OMITTED] T6752.029

[GRAPHIC] [TIFF OMITTED] T6752.030

[GRAPHIC] [TIFF OMITTED] T6752.031

[GRAPHIC] [TIFF OMITTED] T6752.032

[GRAPHIC] [TIFF OMITTED] T6752.033

[GRAPHIC] [TIFF OMITTED] T6752.034

[GRAPHIC] [TIFF OMITTED] T6752.035

[GRAPHIC] [TIFF OMITTED] T6752.036

[GRAPHIC] [TIFF OMITTED] T6752.037

[GRAPHIC] [TIFF OMITTED] T6752.038

[GRAPHIC] [TIFF OMITTED] T6752.039

[GRAPHIC] [TIFF OMITTED] T6752.040

[GRAPHIC] [TIFF OMITTED] T6752.041

[GRAPHIC] [TIFF OMITTED] T6752.042

[GRAPHIC] [TIFF OMITTED] T6752.043

[GRAPHIC] [TIFF OMITTED] T6752.044

[GRAPHIC] [TIFF OMITTED] T6752.045

[GRAPHIC] [TIFF OMITTED] T6752.046

[GRAPHIC] [TIFF OMITTED] T6752.047

[GRAPHIC] [TIFF OMITTED] T6752.048

[GRAPHIC] [TIFF OMITTED] T6752.049

[GRAPHIC] [TIFF OMITTED] T6752.050

[GRAPHIC] [TIFF OMITTED] T6752.051

                 POST-HEARING QUESTIONS FOR THE RECORD

       SUBMITTED TO DR. JIMMY GUIDRY FROM SENATOR DANIEL K. AKAKA

1. The Public Health Service teams are controlled by HHS and the DMATs 
        are part of FEMA, yet they had virtually identical jobs in the 
        immediate response to Hurricane Katrina. Was there sufficient 
        coordination of these public health assets or was the response 
        impaired because the resources were divided between two Federal 
        agencies?
    The problem to be addressed is that the entity with the 
responsibility for coordinating a response did not ``own'' the 
asset. Specifically, HHS as the lead ESF 8 for health and 
medical activities has the responsibility to assist the State 
ESF 8 with placing, monitoring, and coordinating a response 
activity. The assets--i.e., DMAT team--are not under their 
direct control. The additional layers to obtain approval, 
placement, and payment/reimbursement impaired effective 
coordination. Dividing responsibility from asset ownership 
impairs the fabric of accountability.

2. Some public health officials who the Committee interviewed said that 
        outside resources were not helpful unless the personnel could 
        be self-sustained--in other words--they came with their own 
        security, housing, and food. Did you encounter this problem 
        with the medical personnel sent to Louisiana, and if so, do you 
        believe that in the future only self-sustained teams should be 
        sent to a disaster site?
    We found that self-sustained teams of volunteers were more 
effective in response coordination efforts than ``plug and 
place'' of self-deployed volunteers. To address the needs 
(security, housing, and food) of the self-deployed volunteers 
added significantly to an already overwhelming workload. Teams 
that had trained together and understood NIMS were more apt to 
complete a shift and thereby relieve the workload. Volunteers--
while well-intentioned--became more demanding than the patients 
that we were trying to help. In many cases, the volunteers 
would not complete a shift as they would often prefer to 
respond to the ``hot zone'' rather than the coordinated areas 
of care.
[GRAPHIC] [TIFF OMITTED] T6752.052

[GRAPHIC] [TIFF OMITTED] T6752.053

[GRAPHIC] [TIFF OMITTED] T6752.054

[GRAPHIC] [TIFF OMITTED] T6752.055

[GRAPHIC] [TIFF OMITTED] T6752.056

[GRAPHIC] [TIFF OMITTED] T6752.057

[GRAPHIC] [TIFF OMITTED] T6752.058

[GRAPHIC] [TIFF OMITTED] T6752.059

[GRAPHIC] [TIFF OMITTED] T6752.060

[GRAPHIC] [TIFF OMITTED] T6752.061

[GRAPHIC] [TIFF OMITTED] T6752.062

[GRAPHIC] [TIFF OMITTED] T6752.063

[GRAPHIC] [TIFF OMITTED] T6752.064

[GRAPHIC] [TIFF OMITTED] T6752.065

[GRAPHIC] [TIFF OMITTED] T6752.066

[GRAPHIC] [TIFF OMITTED] T6752.067

[GRAPHIC] [TIFF OMITTED] T6752.068

[GRAPHIC] [TIFF OMITTED] T6752.069

[GRAPHIC] [TIFF OMITTED] T6752.070

[GRAPHIC] [TIFF OMITTED] T6752.071

[GRAPHIC] [TIFF OMITTED] T6752.072

[GRAPHIC] [TIFF OMITTED] T6752.073

[GRAPHIC] [TIFF OMITTED] T6752.074

[GRAPHIC] [TIFF OMITTED] T6752.075

[GRAPHIC] [TIFF OMITTED] T6752.076

[GRAPHIC] [TIFF OMITTED] T6752.077

[GRAPHIC] [TIFF OMITTED] T6752.078

[GRAPHIC] [TIFF OMITTED] T6752.079

[GRAPHIC] [TIFF OMITTED] T6752.080

[GRAPHIC] [TIFF OMITTED] T6752.081

[GRAPHIC] [TIFF OMITTED] T6752.082

[GRAPHIC] [TIFF OMITTED] T6752.083

[GRAPHIC] [TIFF OMITTED] T6752.084

[GRAPHIC] [TIFF OMITTED] T6752.085

[GRAPHIC] [TIFF OMITTED] T6752.086

[GRAPHIC] [TIFF OMITTED] T6752.087

[GRAPHIC] [TIFF OMITTED] T6752.088

[GRAPHIC] [TIFF OMITTED] T6752.089

[GRAPHIC] [TIFF OMITTED] T6752.090

[GRAPHIC] [TIFF OMITTED] T6752.091

[GRAPHIC] [TIFF OMITTED] T6752.092

[GRAPHIC] [TIFF OMITTED] T6752.093

[GRAPHIC] [TIFF OMITTED] T6752.094

[GRAPHIC] [TIFF OMITTED] T6752.095

[GRAPHIC] [TIFF OMITTED] T6752.096

[GRAPHIC] [TIFF OMITTED] T6752.097

[GRAPHIC] [TIFF OMITTED] T6752.098

[GRAPHIC] [TIFF OMITTED] T6752.099

[GRAPHIC] [TIFF OMITTED] T6752.100

[GRAPHIC] [TIFF OMITTED] T6752.101

[GRAPHIC] [TIFF OMITTED] T6752.102

[GRAPHIC] [TIFF OMITTED] T6752.103

[GRAPHIC] [TIFF OMITTED] T6752.104

[GRAPHIC] [TIFF OMITTED] T6752.105

[GRAPHIC] [TIFF OMITTED] T6752.106

[GRAPHIC] [TIFF OMITTED] T6752.107

[GRAPHIC] [TIFF OMITTED] T6752.108

[GRAPHIC] [TIFF OMITTED] T6752.109

[GRAPHIC] [TIFF OMITTED] T6752.110

[GRAPHIC] [TIFF OMITTED] T6752.111

[GRAPHIC] [TIFF OMITTED] T6752.112

[GRAPHIC] [TIFF OMITTED] T6752.113

[GRAPHIC] [TIFF OMITTED] T6752.114

[GRAPHIC] [TIFF OMITTED] T6752.115

[GRAPHIC] [TIFF OMITTED] T6752.116

[GRAPHIC] [TIFF OMITTED] T6752.117

[GRAPHIC] [TIFF OMITTED] T6752.118

[GRAPHIC] [TIFF OMITTED] T6752.119

[GRAPHIC] [TIFF OMITTED] T6752.120

                                 <all>

</pre></body></html>
